<html>
<title> - PROPOSALS TO REDUCE GUN VIOLENCE: PROTECTING OUR COMMUNITIES WHILE RESPECTING THE SECOND AMENDMENT</title>
<body><pre>[Senate Hearing 113-870]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-870

                   PROPOSALS TO REDUCE GUN VIOLENCE:
                    PROTECTING OUR COMMUNITIES WHILE
                    RESPECTING THE SECOND AMENDMENT

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON THE CONSTITUTION,
                     CIVIL RIGHTS AND HUMAN RIGHTS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                           FEBRUARY 12, 2013

                               ----------                              

                           Serial No. J-113-3

                               ----------                              

         Printed for the use of the Committee on the Judiciary




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
























                                                        S. Hrg. 113-870

                   PROPOSALS TO REDUCE GUN VIOLENCE:
                    PROTECTING OUR COMMUNITIES WHILE
                    RESPECTING THE SECOND AMENDMENT

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON THE CONSTITUTION,
                     CIVIL RIGHTS AND HUMAN RIGHTS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 12, 2013

                               __________

                           Serial No. J-113-3

                               __________

         Printed for the use of the Committee on the Judiciary




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







             
                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-144 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
  














                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
DIANNE FEINSTEIN, California         CHUCK GRASSLEY, Iowa, Ranking 
CHUCK SCHUMER, New York                  Member
DICK DURBIN, Illinois                ORRIN G. HATCH, Utah
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
AMY KLOBUCHAR, Minnesota             LINDSEY GRAHAM, South Carolina
AL FRANKEN, Minnesota                JOHN CORNYN, Texas
CHRISTOPHER A. COONS, Delaware       MICHAEL S. LEE, Utah
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
MAZIE HIRONO, Hawaii                 JEFF FLAKE, Arizona
            Bruce A. Cohen, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director
                                 ------                                

    Subcommittee on the Constitution, Civil Rights and Human Rights

                    DICK DURBIN, Illinois, Chairman
AL FRANKEN, Minnesota                TED CRUZ, Texas, Ranking Member
CHRISTOPHER COONS, Delaware          LINDSEY GRAHAM, South Carolina
RICHARD BLUMENTHAL, Connecticut      JOHN CORNYN, Texas
MAZIE HIRONO, Hawaii                 ORRIN HATCH, Utah
                 Joseph Zogby, Democratic Chief Counsel
                 Scott Keller, Republican Chief Counsel
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              

                       FEBRUARY 12, 2013, 10 A.M.

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Cruz, Hon. Ted, a U.S. Senator from the State of Texas...........     3
    prepared statement...........................................   148
Durbin, Hon. Dick, a U.S. Senator from the State of Illinois.....     1
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah,
    prepared statement...........................................   147
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont,
    prepared statement...........................................   145

                               WITNESSES

Witness List.....................................................    51
Cooper, Charles J., Partner, Cooper and Kirk, PLLC, Washington, 
  DC.............................................................    33
    prepared statement...........................................   112
Heaphy, Timothy J., U.S. Attorney, Western District of Virginia, 
  U.S. Department of Justice, Washington, DC.....................     5
    prepared statement...........................................    52
Hupp, Suzanna, Lampasas, Texas...................................    31
    prepared statement...........................................   141
Tribe, Laurence H., Carl M. Loeb University Professor, Harvard 
  Law School, Cambridge, Massachusetts...........................    26
    prepared statement...........................................    60
Webster, Daniel W., Sc.D., M.P.H., Director and Professor, Johns 
  Hopkins Center for Gun Policy and Research, Baltimore, Maryland    35
    prepared statement...........................................    95
    appendix.....................................................   105
Wortham, Sandra J., Chicago, Illinois............................    28
    prepared statement...........................................   109

                               QUESTIONS

Questions submitted to Timothy J. Heaphy by Senator Grassley.....   156
Questions submitted to Suzanna Hupp by Senator Grassley..........   159
Questions submitted to Laurence H. Tribe by:
    Senator Graham...............................................   154
    Senator Grassley.............................................   160
Questions submitted to Daniel W. Webster by:
    Senator Graham...............................................   155
    Senator Grassley.............................................   162

                                ANSWERS

[Note: At the time of printing, after several attempts to obtain 
  responses to the written questions, the Committee had not 
  received any communication from Timothy J. Heaphy.]
[Note: At the time of printing, after several attempts to obtain 
  responses to the written questions, the Committee had not 
  received any communication from Suzanna Hupp.]
Responses of Laurence H. Tribe to questions submitted by:
    Senator Graham...............................................   166
    Senator Grassley.............................................   163
Responses of Daniel W. Webster to questions submitted by:
    Senator Graham...............................................   170
    Senator Grassley.............................................   172

                MISCELLANEOUS SUBMISSIONS FOR THE RECORD

Academic Pediatric Association, McLean, Virginia, statement......   179
Advancement Project, Washington, DC, statement...................   187
American Academy of Pediatrics, Washington, DC, statement........   189
American Baptist Home Mission Societies, statement...............   196
American Civil Liberties Union (ACLU), Washington Legislative 
  Office, Washington, DC, statement..............................   198
American Federation of Teachers, Washington, DC, statement.......   207
American Nurses Association (ANA), Silver Spring, Maryland, 
  statement......................................................   209
    appendix.....................................................   212
American Public Health Association, Washington, DC, statement....   214
Andrinopoulos Mina, Angelike, Esq., Arlington, Virginia, 
  statement......................................................   217
Ann and Robert H. Lurie Children's Hospital of Chicago, Chicago, 
  Illinois, statement............................................   220
Articles, letters, and statements submitted by Hon. Ted Cruz, a 
  U.S. Senator from the State of Texas...........................   552
Association of Prosecuting Attorneys (APA), Washington, DC, 
  statement......................................................   225
Atwood, James E., Dr., Springfield, Virginia, statement..........   227
Baimel, Jill, Newtown, Connecticut, statement....................   229
Baker, Karen D., statement.......................................   231
Baldwin, Larry, statement........................................   234
Basch, Rachel, Sandy Hook, Connecticut, statement................   235
Bensinger, Katharine, Chicago, Illinois, statement...............   237
Berger, Lisa, Newtown, Connecticut, statement....................   239
Berger, Paul, Newtown, Connecticut, statement....................   243
Bergman, Maura S., Newtown, Connecticut, statement...............   245
Bilgin, Klara, Oakton, Virginia, statement.......................   246
Brady Center to Prevent Gun Violence, Washington, DC, statement..   247
Brainard, Catherine E., M.A. Special Ed., Bethel, Connecticut, 
  statement......................................................   259
Brandon, Gregory H., McLean, Virginia, statement.................   260
Burlakoff, Nikolai, U.S. Army veteran, statement.................   261
Calhoun, John A. ``Jack,'' statement.............................   263
Callery, Jennifer, Sandy Hook, Connecticut, statement............   264
Cardinal Glennon Children's Medical Center, St. Louis, Missouri, 
  statement......................................................   265
Casper, Cindy L., Bridgeport, Connecticut, statement.............   267
Catholic Dioceses of One Spirit, The, Clifton, Virginia, 
  statement......................................................   502
Church of the Brethren, Peace Witness Ministries, Washington, DC, 
  statement......................................................   268
Cicarelli, Rebecca, Sandy Hook, Connecticut, statement...........   270
City of Charlottesville Police Department, Charlottesville, 
  Virginia, statement............................................   271
Cleary, Laura, New Fairfield, Connecticut, statement.............   274
Clements, Abbey, Newtown, Connecticut, statement.................   275
Clements, Brian, Ph.D., Newtown, Connecticut, statement..........   276
Clements, Sarah, Newtown, Connecticut, statement.................   278
Coalition to Stop Gun Violence (CSGV), Washington, DC, statement.   282
Cramer, Clayton E., February 7, 2013, letter.....................   636
Crandall, Marie, M.D., M.P.H., Chicago, Illinois, statement......   286
Delgado, Beatriz, Norwalk, Connecticut, statement................   289
Dessau, Sylvie, statement........................................   290
Dolzall, Donnette, Newtown, Connecticut, statement...............   293
Episcopal Church, The, New York, New York, statement.............   504
Faiths United to Prevent Gun Violence, Washington, DC, statement.   294
Families Against Mandatory Minimums (FAMM), statement............   302
Filkins, Andrea, Alexandria, Virginia, statement.................   305
Fronckiewicz, Laura, Denver, Colorado, statement.................   307
Giusti, Ron and Marsha, Springfield, Virginia, statement.........   309
Habtu, Elilta ``Lily,'' M.S., Virginia Tech Injured Survivor, 
  statement......................................................   310
Hagmann, Suzanne and Daniel, Wilton, Connecticut, statement......   315
Haywood, Kim, Newtown, Connecticut, statement....................   316
Herve, Heather Borden, Wilton, Connecticut, statement............   317
Hodson, Dee, statement...........................................   320
Hodson, Sophia, statement........................................   321
Horwatt, Sally Singer, Ph.D., Licensed Clinical Psychologist, 
  statement......................................................   322
Hull, Margaret, Newtown, Connecticut, statement..................   324
Injury and Violence Prevention Network (IVPN), statement.........   326
Institute of Social Medicine and Community Health, McLean, 
  Virginia, statement............................................   330
Interfaith Alliance, Washington, DC, statement...................   332
Kassirer, Susan J., Sandy Hook, Connecticut, statement...........   334
Kelly, Anne, Goshen, Connecticut, statement......................   339
Kenausis, Veronica, Bethel, Connecticut, statement...............   340
Kent, Samantha, Newtown, Connecticut, statement..................   342
Killin, Hugh E. ``Tripp,'' III, Newtown, Connecticut, statement..   343
Killin, Jennifer, Newtown, Connecticut, statement................   345
La Rabida Children's Hospital, Chicago, Illinois, statement......   349
Law Center to Prevent Gun Violence, San Francisco, California, 
  statement......................................................   350
League of Women Voters of the United States, Washington, DC, 
  statement......................................................   353
Leon-Gambetta, Wendy, Newtown, Connecticut, statement............   356
Levinson, Michelle, Connecticut resident, statement..............   357
Levy, Robert A., February 11, 2013, letter--Redacted.............   649
Loganathan, Uma M., daughter of slain Virginia Tech Professor 
  G.V. Loganathan, statement.....................................   359
Lucia, Joan Hubbard, Newtown, Connecticut, statement.............   363
Malcolm, Joyce Lee, letter--Redacted.............................   647
Mayors Against Illegal Guns, ``America's Mayors Urge Congress To 
  Support Making Gun Trafficking a Crime as Part of a Larger 
  Legislative Package To Reduce Gun Violence,'' statement........   374
Mayors Against Illegal Guns, ``U.S. Mayors Call on Congress To 
  Support Assault Weapons Ban,'' statement.......................   364
Mazier, Giselle, Wilton, Connecticut, statement..................   386
McNabb, Lu Ann Maciulla, Centreville, Virginia, statement........   387
Million Mom March, Virginia State Chapters, statement............   539
Misencik, Sally and Paul, Reston, Virginia, et al., statement....   389
Miwa, Linda J., Burke, Virginia, statement.......................   390
Monaghan, Georgia, Sandy Hook, Connecticut, statement............   392
Morosky, Andrew M., Newtown, Connecticut, statement..............   393
Morosky, Katherine, Newtown, Connecticut, statement..............   395
Murray, Po, Sandy Hook, Connecticut, statement...................   396
Murray, Tom, Sandy Hook, Connecticut, statement..................   400
Myles, Sandra, Oakton, Virginia, statement.......................   402
Myles, Steven J., Oakton, Virginia, statement....................   403
Naphen, Sarah, Newtown, Connecticut, statement...................   410
National Association for the Advancement of Colored People 
  (NAACP) Legal Defense and Educational Fund, Inc. (LDF), New 
  York, New York, statement......................................   404
National Association of Public Hospitals and Health Systems 
  (NAPH), Washington, DC, statement..............................   411
National Association of School Nurses, Silver Spring, Maryland, 
  statement......................................................   415
National Association of School Psychologists (NASP), Bethesda, 
  Maryland, statement............................................   417
    appendix 1...................................................   418
    appendix 2...................................................   423
National Association of Social Workers (NASW), Washington, DC, 
  statement......................................................   427
National Council of Churches USA, Washington, DC, statement......   431
National Education Association, Washington, DC, statement........   433
National Law Enforcement Partnership To Prevent Gun Violence, 
  Washington, DC, statement......................................   437
National Network To End Domestic Violence (NNEDV), Washington, 
  DC, statement..................................................   441
National Parent Teacher Association (PTA), Alexandria, Virginia, 
  statement......................................................   445
National Urban League (NUL), New York, New York, statement.......   447
Neff, Richard H., Ed.D., Fairfax, Virginia, statement............   450
Neff, Robert T., Jr., Newtown, Connecticut, statement............   451
Neuhoff, John, Sandy Hook, Connecticut, statement................   452
Newtown Action Alliance, The, Newtown, Connecticut, statement....   454
Nikitchyuk, Andrei, Sandy Hook, Connecticut, statement...........   456
O'Shea, John S., M.D., F.A.A.P., ``Disarming the U.S.,'' 
  statement......................................................   458
Pacchiana, Miranda, Sandy Hook, Connecticut, statement...........   460
Poje, Gerald V., Ph.D., Vienna, Virginia, statement..............   461
Police Foundation, Washington, DC, statement.....................   463
Poupon, Eric, Newtown, Connecticut, statement....................   466
Powers, Pamela S., M.Ed., M.S.W., L.C.S.W., C.A.P., U.S. Navy 
  retired, statement.............................................   468
Pratt, Larry, February 12, 2013, letter..........................   640
    appendix.....................................................   642
Prevey, Melissa, Redding, Connecticut, statement.................   470
Professors of Constitutional Law, Bruce Ackerman et al., 
  statement......................................................   471
Pumilia, Maria C., Albuquerque, New Mexico, statement............   477
Rehabilitation Institute of Chicago (RIC), Chicago, Illinois, 
  statement......................................................   479
Richardson, Barbara B., Sandy Hook, Connecticut, statement.......   480
Roome, Ethel-Anne, Southbury, Connecticut, statement.............   481
Samples, Diane, New Fairfield, Connecticut, statement............   482
Schuetz, Jennifer, statement.....................................   485
Schwartz, Lisa, Newtown, Connecticut, statement..................   487
Scoville, Rebecca, statement.....................................   489
Sentencing Project, The, Washington, DC, statement...............   507
Sivigny, Virginia D., Virginia resident, endorsing Martina Leinz' 
  statement......................................................   490
Snyder, Mark, New Fairfield, Connecticut, statement..............   491
Sriram, Sanjeev K., M.D., M.P.H., ``An Assault Gun Ban, Mr. 
  Congress Man?'' poem...........................................   492
St. Louis Children's Hospital (SLCH), St. Louis, Missouri, 
  statement......................................................   494
Stern, Julia, Newtown, Connecticut, statement....................   496
Swain, Colleen, Sandy Hook, Connecticut, statement...............   498
Swain, Ken, Sandy Hook, Connecticut, statement...................   499
Swanson, Veronica C., M.D., Philadelphia, Pennsylvania, statement   501
Tripp, Robert L., Reston, Virginia, statement....................   516
Unitarian Universalist Association of Congregations, Washington, 
  DC, statement..................................................   520
United States Conference of Catholic Bishops (USCCB), Washington, 
  DC, statement..................................................   517
United States Conference of Mayors, The, Washington, DC, 
  statement......................................................   511
Velush, Joan, and Craig Rogers, Sandy Hook, Connecticut, 
  statement......................................................   522
Velush-Rogers, Zoe, Sandy Hook, Connecticut, statement...........   527
Violence Policy Center (VPC), Washington, DC, statement..........   531
Wall, Jennifer, Virginia resident, statement.....................   542
Washington Ethical Society, Washington, DC, statement............   543
West, Robert C., Jr., Afton, Virginia, statement.................   544
Wilson, Donald, letter...........................................   546
Wilson, Maureen, Newtown, Connecticut, statement.................   547
Win The War! Against Violence, Lexington, Kentucky, statement....   548
Yergovich, Maryanne, statement...................................   551

                 ADDITIONAL SUBMISSIONS FOR THE RECORD

Submissions for the record not printed due to voluminous nature, 
  previously printed by an agency of the Federal Government, or 
  other criteria
  determined by the Committee, list..............................   654

Cramer, Clayton, Professor, ``Reforming Colorado Mental Health 
  Law,'' issue paper:
    http://www.claytoncramer.com/scholarly/
      ColoradoMentalHealthReform-1.pdf...........................   654

Pratt, Erich, and Michael Hammond, Gun Owners of America, 
  ``Current Gun Control Proposals Will Endanger the Rights of 
  Law-Abiding Americans,'' statement:
    http://gunowners.org/congress02122013.htm....................   654

Reynolds, Glenn Harlan, Professor, ``Second Amendment Penumbras: 
  Some Preliminary Observations,'' research paper:
    http://papers.ssrn.com/sol3/papers.cfm?abstract_id=2002132...   654

 
                   PROPOSALS TO REDUCE GUN VIOLENCE:
                    PROTECTING OUR COMMUNITIES WHILE
                    RESPECTING THE SECOND AMENDMENT

                              ----------                              


                       TUESDAY, FEBRUARY 12, 2013

                      United States Senate,
Subcommittee on the Constitution, Civil Rights and 
                                      Human Rights,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10 a.m., in
Room SH-216, Hart Senate Office Building, Hon. Dick Durbin, 
Chairman of the Subcommittee, presiding.
    Present: Senators Durbin, Franken, Blumenthal, Hirono, 
Cruz, Graham, Cornyn, and Hatch.
    Also present: Senators Feinstein, Schumer, Klobuchar, and 
Grassley.

             OPENING STATEMENT OF HON. DICK DURBIN,
           A U.S. SENATOR FROM THE STATE OF ILLINOIS

    Chairman Durbin. This hearing of the Subcommittee on the 
Constitution, Civil Rights and Human Rights will come to order. 
Today's hearing is entitled, ``Proposals to Reduce Gun 
Violence: Protecting Our Communities While Respecting the 
Second Amendment.'' This is the first hearing of the 
Constitution Subcommittee of the 113th Congress, and I want to 
welcome my Ranking Republican Member, Senator Ted Cruz of 
Texas. Thank you for joining us at this Committee hearing, as 
well as my other colleagues who will be here.
    I also want to thank Senator Pat Leahy, Chairman of the 
full Committee, for giving this opportunity to us to have this 
hearing today. The Chairman held a hearing on January 30th to 
begin this conversation on gun violence, and we continue it 
today.
    We are pleased to have such a large audience for our 
hearing. It demonstrates the importance of this issue, and at 
the outset I want to note that the rules of the Senate prohibit 
outbursts, clapping, or demonstrations of any kind at these 
hearings. There was so much interest in today's hearing that we 
have had to expand the opportunity for the audience to an 
adjoining room. The overflow room is 226 in the Dirksen 
Building.
    I will make a few opening remarks, give my Ranking Member, 
Senator Cruz, the same opportunity, and then welcome our first 
witness.
    We are here today to discuss a critically important issue, 
maybe even a very basic question. We venerate in this country 
our commitment to the life, liberty, and pursuit of happiness 
of those who live in America. We also guarantee under our Bill 
of Rights the right to bear arms. Can we make these two 
consistent? Can they work together? Can we protect a person's 
right to own a firearm and still say to the rest of America, 
``We also need to protect your right to life, to peace, to 
freedom from violence from those same firearms'' ?
    According to the Centers for Disease Control, over 11,000 
Americans--11,000--are murdered with guns every year. That is 
more each year than all the American lives that were lost in 
the tragedy of 9/11 and the wars in Iraq and Afghanistan 
combined. Each year.
    Every day more than 30 men, women, and children are killed 
in violent shootings; 200 are shot but survive. These are 
sobering statistics. But numbers do not really capture the 
deeply personal impact of gun violence.
    There are too many families who now face an empty seat at a 
dinner table, too many parents who walk past an empty bedroom, 
too many husbands and wives who have lost the love of their 
lives because of gunfire. It is heartbreaking and, sadly, it 
has become almost routine in this great Nation--in a park in 
Chicago, at a nightclub in East St. Louis, Illinois, at a movie 
theater in Aurora, Colorado, at a shopping center in Tucson, 
Arizona, in a Sikh temple in Oak Creek, Wisconsin, at a 
military base in Texas, in college lecture halls in DeKalb, 
Illinois, and Blacksburg, Virginia, and in first grade 
classrooms in Newtown, Connecticut. Americans all across the 
country are saying, ``Enough.'' We have reached a tipping 
point. We need to act. We need to better protect our kids, our 
families, our schools, our loved ones from the epidemic of gun 
violence.
    Some say we should just enforce the laws that are on the 
books, but that is not enough. There are so many gaps in those 
laws that we know they have created the situation we face 
today.
    The Senate will take up many proposals that will close 
those gaps and help prevent and reduce gun violence. We will 
consider universal background checks for gun sales, tougher gun 
laws against illegal straw purchasing and gun trafficking, 
stopping the flood of new military-style assault weapons onto 
our streets, limiting the capacity of new gun magazines to a 
level that allows for reasonable self-defense but reduces the 
scope of carnage that a mass shooter can cause.
    All of these proposals are based on common sense; all of 
them have strong support among the American public; and all of 
them, I believe, are clearly consistent with our Constitution 
and the Second Amendment in the Bill of Rights.
    In the landmark Supreme Court decision in Heller in 2008, 
the Court held that Americans have an individual right to 
possess firearms for lawful purposes such as self-defense. But 
Justice Scalia--no liberal, Justice Scalia--writing for the 
Court's conservative majority, made clear that the Second 
Amendment right is ``not unlimited,'' and that like other 
rights, it is subject to reasonable regulation. In fact, the 
Heller decision takes pains not to cast any doubt on common-
sense gun laws. Over and over, the Heller Court described gun 
regulation as ``permissible,'' supported by historical 
tradition and ``presumptively lawful.''
    When given the opportunity to retreat from those statements 
in the 2010 McDonald case, the Court instead reinforced the 
same statements and described them as ``assurances.'' And in 
hundreds of cases following Heller, lower courts have upheld 
common-sense gun laws as consistent with the Second Amendment.
    There are some who continue to challenge the 
constitutionality of reasonable gun regulation, even though 
history, precedent, and the Supreme Court statements in Heller 
and McDonald weigh heavily against them. They do so hoping that 
judicial activism will advance their no-compromise ideology 
when it comes to guns. But I think we need to be careful. This 
is not some abstract, legal debate. Guns have forever changed 
the lives of so many people. Let me mention just a few of them.
    Hadiya Pendleton, an honor student and inspiration to her 
friends. ``A walking angel,'' her cousin called her. She was 
taken from us 2 weeks ago. Hadiya's family is here today.
    Ryanne Mace, a student at Northern Illinois University, 
with a warm heart, a bright future, murdered in her classroom 
by a man with a history of mental illness. Ryanne's mother, 
Mary Kay, is here today.
    Blair Holt, 16 years old and full of promise, killed while 
shielding his female friend from a gang member spraying bullets 
on a Chicago city bus. Blair's mother, Annette, is here today.
    Marcus Norris, who was hit in the face by a bullet that 
came through the wall of his house when he was 9 years old. 
Thank God Marcus survived, and we are blessed to have him here 
today.
    Chicago police officer Thomas Wortham IV, a true American 
hero who dedicated his life to serving his country and his 
community, killed by gang members with a straw-purchased gun. I 
attended his funeral service. Officer Wortham's family is here, 
and his sister, Sandra, will testify today.
    There are many more here in this room today whose lives and 
whose families have been changed by gun violence. I would like 
to ask those friends and family of the victims of gun violence 
to please stand.
    Look about this room. Understand that the debate we have 
before us has affected so many lives, and thank you all for 
being here today. As we conduct this debate and we honor your 
loved ones who are no longer with us, we know that we have to 
act. Thank you so much for joining us at this hearing.
    Senator Cruz.

              OPENING STATEMENT OF HON. TED CRUZ,
             A U.S. SENATOR FROM THE STATE OF TEXAS

    Senator Cruz. Thank you, Mr. Chairman. Let me say it is a 
particular honor to serve as Ranking Member on this Committee 
with you, and it is also a particularly high honor to serve on 
the Committee with two former Ranking Members and Chairmen of 
this Committee, Senator Cornyn and Senator Hatch, as well as 
the Ranking Member of the entire Committee, Senator Grassley.
    All of us were rightly horrified by the tragedy in Newtown, 
Connecticut. To see young children senselessly murdered takes 
your breath away. Let me say to each of you who has come here 
today that are the victims of crimes of violence, my heart goes 
out to you. Thank you for coming. Thank you for standing for 
your lost loved ones.
    I will tell you, I have spent personally much of my 
professional career working in law enforcement to, number one, 
prevent these horrible crimes of violence; and, number two, to 
ensure that anyone that carries them out is subject to the very 
strictest punishments. And I am hopeful that the fervor that we 
see in this Judiciary Committee hearing for standing up for 
victims of crimes of violence will carry over to issues other 
than gun control. I am hopeful that that same fervor will be 
present with judicial nominees are here who have a record and 
history of allowing those who have committed violent crimes to 
walk free. I hope that same fervor on a bipartisan basis will 
be present when we are talking about how to ensure that the 
laws and resources are there to prevent violent criminals from 
carrying out their horrific crimes and to ensure that every one 
of them receives a fair and just punishment.
    In my view, the divide on this issue is fairly 
straightforward. The focus of law enforcement should be on 
criminals, and we should be unstinting in protecting 
communities. Many of the communities that each of you has 
suffered losses in are communities that, sadly, law enforcement 
has been failing. And we should be working to fix that problem.
    At the same time, I think we should continue to respect and 
protect the constitutional rights of law-abiding citizens. It 
is often lost in the debate over guns that the Second Amendment 
is part of our Constitution. It is part of the Bill of Rights. 
It is indeed, as Justice Joseph Story put it, the ``palladium 
of liberty,'' a fundamental protection of every American. And 
in my view, stripping the constitutional rights of law-abiding 
citizens does nothing to prevent criminals from carrying out 
violent crime. And, indeed, the overwhelming weight of the 
empirical evidence demonstrates that when the rights of law-
abiding citizens to protect themselves, to protect their homes, 
to protect their families are taken away, that violent crime 
increases; that citizens defenseless are more vulnerable to 
violent criminals.
    For that reason, the two cities with the strictest gun 
control policies in the country--Washington, DC, and Chicago--
both of which for years had effectively total bans on firearms 
ownership, so it could not be possible to have a stricter 
policy, both have, sadly, suffered from some of the highest 
crime rates and highest murder rates notwithstanding those laws 
and, I would suggest, in significant part because of those 
laws.
    If you look in contrast to jurisdictions that have 
protected the constitutional right to bear arms, you have 
consistently seen lower crime rates, lower murder rates, as 
individual citizens are able to protect their family.
    The Supreme Court's decisions in Heller and McDonald were 
landmark decisions. They concern the question whether each of 
us is protected by the Bill of Rights, because the position of 
the cities of DC and Chicago in that litigation was that no 
individual has any right whatsoever under the Second Amendment. 
The position of the litigants in those cases, I would suggest, 
was quite extreme. Today we are discussing what are the limits 
on that right because the Supreme Court made absolutely clear 
that the Second Amendment is a constitutional right of every 
American. And I would point out that constitutional rights are 
designed to be protected not just when they are popular, but 
especially when passions are seeking to restrict and limit 
those rights.
    And so I look forward to this hearing underscoring the 
vital protections of the Second Amendment to every American.
    Chairman Durbin. Thank you, Senator Cruz.
    In keeping with the practice of the Committee, the witness 
will please stand and raise his right hand to be sworn. Do you 
affirm that the testimony you are about to give before the 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you God?
    Mr. Heaphy. I do.
    Chairman Durbin. Thank you.
    Let the record indicate that the witness answered in the 
affirmative.
    We are pleased to be joined by a witness from the 
Department of Justice, U.S. Attorney Timothy Heaphy. I would 
note that at our last hearing on gun violence on January 30th, 
there was a specific request from the Republican side for the 
Justice Department to send a witness to our next hearing to 
discuss the enforcement of current gun law. The Department has 
responded to this request.
    Timothy Heaphy was confirmed by the Senate in 2009 to serve 
as the U.S. Attorney for the Western District of Virginia. 
Prior to his appointment, he served for 12 years as Assistant 
U.S. Attorney in Virginia and the District of Columbia. He has 
also worked in private practice and taught at the University of 
Virginia School of Law. He received his undergraduate and law 
degrees from the University of Virginia as well.
    Mr. Heaphy, thanks for joining us today. We will give you 5 
minutes for an opening statement. Your complete statement will 
be part of the record, and then we will ask some questions. 
Please proceed.

STATEMENT OF TIMOTHY J. HEAPHY, UNITED STATES ATTORNEY, WESTERN 
 DISTRICT OF VIRGINIA, U.S. DEPARTMENT OF JUSTICE, WASHINGTON, 
                               DC

    Mr. Heaphy. Thank you very much, Chairman Durbin, Ranking 
Member Cruz, and Members of the Subcommittee. I serve as the 
United States Attorney for the Western District of Virginia, 
and in that capacity, I am pleased and honored, really, to 
speak with you about the continuing work of the United States 
Attorney community and the Department of Justice to address 
gun-related violence.
    This is a very personal issue to me, Chairman Durbin. I 
have prosecuted literally hundreds of gun cases in my 15 years 
as a Federal prosecutor, including a year-long trial of a 
violent drug gang right here in Washington, DC. I currently 
serve as United States Attorney in a district that has felt the 
pain of a mass shooting on the campus of Virginia Tech. I have 
spent my career talking to the victims of these awful crimes, 
folks much like those in the audience today, and working with 
the men and women who investigate them on the street.
    Attorney General Eric Holder has consistently emphasized 
that combating violent crime and fostering safe communities is 
a top priority of the Department of Justice. To that end, he 
has tasked the Nation's 93 United States Attorneys with the 
responsibility to develop localized strategies to apprehend and 
prosecute individuals, street gangs, and other criminal 
organizations that engage in gun-related violence.
    These local strategies require us to work smarter by 
gathering intelligence and targeting our enforcement efforts on 
the most dangerous and complicated threats in our communities. 
We use that intelligence to vigorously prosecute gun crime, 
relying on close coordination with agents from the Bureau of 
Alcohol, Tobacco, and Firearms and our other State, Federal, 
and local partners.
    But we do more than arrest and prosecute. In communities 
where violence persists, we are forging partnerships with 
prevention organizations and supporting their important work. 
Our Violence Prevention Strategy relies upon a nationwide 
effort to keep guns out of the hands of prohibited persons. 
When licensed gun dealers run a background check on every 
potential gun buyer, they ensure that they are not selling 
firearms to felons, domestic abusers, drug users, people with 
recognized mental health issues, or others who by law cannot 
possess a firearm. But the background check system is only 
effective if it contains all relevant information from every 
source.
    The Department of Justice is working to create incentives 
and provide assistance to State governments, the prime 
contributors to that background check system, to ensure that 
they put all relevant criminal and mental health records into 
the National Instant Criminal Background Check System, or NICS.
    Even if we find a way to get every record into NICS, our 
effort to prevent criminals from getting guns is hampered by 
current holes in the background check system. Our experience 
shows that violent criminals often seek out sellers, whether at 
gun shows, on the Internet, or in the Yellow Pages, who are not 
licensed dealers and are not required to run the background 
check. Extending the background check requirement to all 
commercial transactions, absent some limited exceptions, is our 
best opportunity to keep firearms out of dangerous hands and 
help keep our children and communities safe.
    Strategies for enforcement of firearms offenses will vary, 
depending on the nature of the problem in particular 
communities. We work closely with State prosecutors and local 
law enforcement officials to determine if a particular gun case 
or gun offender should be charged in Federal or State court. 
When cases come to us, we use Federal firearms statutes to 
prosecute prohibited persons who obtain and possess firearms, 
people who were prevented from obtaining a firearm due to an 
interception of the background check. We prosecute individuals 
engaged in the business of dealing firearms without a license 
or who ignore or disregard the law, preventing gun sales to 
prohibited persons. We charge violent criminals with using guns 
to commit a range of other crimes, from drug dealing to robbery 
to homicide, using statutes which often carry lengthy mandatory 
sentences.
    Additionally, we do all we can to pursue cases involving 
gun trafficking and straw purchases of firearms, despite the 
enormous challenges that such cases present. There is currently 
no single Federal statute specifically devoted to punishing 
firearms trafficking or straw purchasing. This gap in current 
law requires prosecutors to try to find other gun-related 
criminal statutes, generally paperwork violations, that can be 
applied to the facts of a particular trafficking scheme. 
Without a stand-alone statute and more meaningful penalties for 
those who traffic in firearms, we will continue to find it 
difficult to dismantle the criminal networks that exploit these 
statutory gaps.
    I want to end by reassuring this Committee and the American 
people that the Department's commitment to vigorous pursuit of 
impactful gun prosecutions is as strong as ever. While the 
number of gun defendants charged by United States Attorneys has 
declined slightly since 2005, our numbers are significantly 
higher than they were back in fiscal years 2000 to 2002. During 
the same period of time, the number of murders and other 
violent crime has declined nationwide at an even greater rate. 
In short, our commitment to gun prosecutions has never wavered 
and has helped lead to an overall decrease in violent crime.
    Thank you again for the opportunity to appear before you 
today. I look forward to answering your specific questions.
    [The prepared statement of Mr. Heaphy appears as a 
submission for the record.]
    Chairman Durbin. Thanks, Mr. Heaphy. Let me say a word 
about Chicago. It is a great city, but it is not an island. 
Just outside Chicago in a suburb is one gun store that we can 
hold responsible for 20 percent of the crime guns that we 
confiscate in the city of Chicago. So despite the laws in 
Chicago, the fact that you can cross outside the city into the 
suburbs, go downstate, to neighboring States--we have even 
found in the last 20 years 9 percent of the crime guns in the 
city of Chicago could be traced to the State of Mississippi. We 
cannot deal with this in isolation community by community.
    I want to address the issue of straw purchasing. Straw 
purchasing is a dangerous act that supplies many criminals in 
the city of Chicago and across the United States and other 
prohibited purchasers with guns. Under the current Federal law, 
the primary statute used for charging penalizes a person who 
``knowingly makes a false statement about a fact material to 
the lawfulness of a gun sale.'' This statute is essentially 
about document fraud. The crime is tied to lying on sale 
paperwork when the straw purchaser checks ``yes'' on the ATF 
form that asks, ``Are you the actual buyer of the firearm 
listed on this form? ''
    Can you talk about the challenge in prosecuting cases that 
appear to be paperwork prosecutions?
    Mr. Heaphy. Yes, Senator. I appreciate the question, and 
you are exactly right, that when someone goes into a gun store, 
buys a gun on behalf of someone else, our hands are tied. We 
can prosecute that as a paperwork violation but not as what it 
is, which is an illegal straw purchase of a gun.
    Section 922(a)(6) is the statute which punishes a false 
statement on a firearm form. That requires evidence that the 
person knew that he was making the false statement, and that 
oftentimes just on the misrepresentation is a difficult 
threshold for us to meet. Prosecutions under that law carry a 
very minimal recommended Sentencing Guideline range. I think 
CRS did a study years ago in which they found that fully a 
third of the 922(a)(6) charges resulted in a not guilty verdict 
largely because of this intent standard; and then another 37 
percent resulted in a sentence of less than a year in prison. 
So the statute itself, even if we have the evidence of a 
specific intent to conduct a straw purchase, does not give us 
very much teeth, sir, on the back end in order to get 
actionable intelligence about that straw purchase.
    Chairman Durbin. So, Mr. Heaphy, those who argue that we 
already have laws on the books, we just need to enforce them, 
you are telling us that this law is essentially a weak law; it 
is a paperwork prosecution which is not taken as seriously as 
the ultimate crime or death that might result from this straw 
purchase.
    Mr. Heaphy. In our business, Senator Durbin, we are 
constantly focused on gathering intelligence about more and 
more serious patterns of crime. Gun trafficking is no 
exception. It is essential for us, when we arrest someone who 
is a straw purchaser, to get actionable intelligence about 
where that gun was going, who hired him to conduct that straw 
purchase. The leverage that we have to gain that intelligence 
comes from a significant penalty, and if the penalty 
essentially is a paperwork violation that is not intimidating, 
it is difficult for us to get that intelligence to work up the 
chain of those straw purchasing networks.
    Chairman Durbin. I have joined with Chairman Leahy in 
cosponsoring legislation relating to straw purchasers. There 
are several other bills. Senator Kirk, my colleague from 
Illinois, Senator Gillibrand, they have one.
    Do you believe that creating a separate Federal offense for 
straw purchasing would put a significant dent in the criminal 
gun market?
    Mr. Heaphy. Yes, Senator, I do. The Department strongly 
supports a stand-alone straw purchasing statute. It will give 
us those more serious penalties that we need in order to gain 
intelligence and buildup the chain of these networks of 
individuals that conduct straw purchases.
    Chairman Durbin. I have found in my State and we have heard 
in other States that there is a cooperation between State and 
local prosecutors and Federal prosecutors in allocating these 
prosecutions. And many times what could be an offense under 
either law is passed along to the local or State prosecutors.
    Can you tell me how this affects the statistics on Federal 
prosecution of gun laws?
    Mr. Heaphy. Yes, Senator. We have to work very closely with 
our State and local partners in a collaborative approach to gun 
violence. We do that in every single district in the country. 
In my district, in Charlottesville, Virginia, when someone is 
arrested with a gun, there is a conversation between myself and 
my elected Commonwealth's attorney in that jurisdiction. We 
talk about whether or not it makes sense for that offender to 
be charged federally or under State law. Since the Virginia 
Tech shooting in Virginia, there are increased penalties for 
being a felon in possession. It is a concurrent jurisdiction 
where the State can prosecute the same act as we can. And if 
the State penalty is as significant, that case often goes to 
State court, and that has contributed to that slight decline in 
our overall number of gun defendants.
    Chairman Durbin. The last point I will make is that March 
1st, unless something else is done, there is going to be a 
sequester and a cutback in the Department of Justice in the 
resources available for the prosecution of crime. About a 
thousand Federal prosecutors may be terminated or at least 
reduced in service. I think the impact is obvious, but would 
you like to comment on that?
    Mr. Heaphy. We are trying our best to do all we can with 
the limited resources we have. As those resources diminish, 
whether they are prosecutors, whether they are agents, our job 
is made more difficult. Those sequester cuts would be very 
difficult for us to absorb.
    Chairman Durbin. Thank you.
    Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman. Mr. Heaphy, I want 
to thank you for being here. I want to thank you for your 
service on the front lines of law enforcement. What you are 
focusing on doing, which is bringing the criminal laws to bear, 
stopping and punishing violent criminals, is critically 
important, and I commend you for that service.
    Mr. Heaphy. Thank you, sir.
    Senator Cruz. I would like to address two issues that came 
up in your testimony. The first is the efficacy of gun control 
laws and, second, the question of straw purchases. Let us start 
on gun control laws and do they work.
    Are you aware of any serious empirical basis for the 
proposition that significantly restricting the rights of law-
abiding citizens to keep and bear arms actually results in 
reducing violent crime?
    Mr. Heaphy. Sir, violent crime is down substantially from 
where it was. I think that is due in part to vigorous 
enforcement, getting guns out of the hands of violent 
criminals. I do not know that we are ever going to stop violent 
crime. Unfortunately, the business in which I work will always 
be necessary.
    What we are trying to do is increase the barriers to the 
commission of that violent crime, make it more difficult for 
offenders to get the firearms in the first place to----
    Senator Cruz. Mr. Heaphy, let me point out a couple of 
things. Number one, your statement that violent crime is down 
is a statement about national trends, and you are right, and I 
agree that vigorous enforcement of criminal laws targeting 
violent criminals, that works.
    The question about stripping the rights of law-abiding 
citizens, however, the only way to ascertain that is to engage 
in a comparative analysis of those jurisdictions that have done 
so versus those jurisdictions that have not. For example, if 
you look at cities, of the top six cities with murder rates, 
Detroit, sadly, in 2001 topped the list with 48 murders per 
100,000 people. Baltimore, Maryland, was second with 31 murders 
per 100,000 people; Philadelphia third with 21 murders per 
100,000 people. Memphis, Tennessee, the only one of the top six 
without especially vigorous gun control laws, is fourth with 18 
murders per 100,000 people. Washington, DC, is fifth with 18 
murders per 100,000 people, and Chicago, Illinois, is sixth 
with 16 murders per 100,000 people. Five of the six cities with 
the highest murder rates are among those cities with the 
strictest gun control.
    If you contrast that to cities that do not have strict gun 
control, for example, my home town of Houston, where there are 
9 murders per 100,000 people, that is less than quarter what 
Detroit suffers under. Or if you look at other cities in my 
home State of Texas, San Antonio has 7 murders per 100,000 
people. Austin has 4 murders per 100,000 people. El Paso has 2 
murders per 100,000 people. That means Detroit, the murder rate 
is 24 times higher than it is in El Paso.
    And I would also point out the argument that you and the 
Chairman were discussing about cities such as Chicago not being 
isolated islands, that there are places elsewhere in the 
country where people can legally purchase firearms. None of 
those cities I discussed--Houston, Austin, San Antonio, El 
Paso--are isolated islands. Indeed, in the entire State you can 
purchase firearms, and what we see in terms of the murder rates 
is the murder rates are consistently lower.
    So my question to you is not your subjective belief, but 
are you aware of any empirical data--every one of us wants to 
reduce murder rates. My question to you is: Is there any 
empirical basis for saying stripping the constitutional rights 
of law-abiding citizens would result in decreasing murder rates 
rather than increasing them, which, unfortunately, is the 
pattern that I think we have seen?
    Mr. Heaphy. Senator Cruz, let me start answering your 
question by thanking you and this Committee for expanding our 
discussion on guns beyond the mass shooting to urban violence. 
I have spent my career working on urban violence issues in 
relative obscurity, and the fact that we are having this 
discussion about urban violence is much appreciated by those of 
us who work on the line.
    My career of working on this issue has shown me that there 
is no single factor that drives this. It is a complicated 
problem. It is a factor of educational opportunity, economic 
opportunity, health care. It is a comprehensive situation that 
breeds violence. So to tie gun ownership or restrictive or 
permissive gun laws to a murder rate I think isolates one 
factor----
    Senator Cruz. Mr. Heaphy, with respect, if I could stop 
you, because my time is running out, I will just point out for 
the record that twice given the opportunity to answer is there 
any empirical basis for the proposition that strict gun control 
would reduce violence, twice you have not been able to give an 
example of that.
    Very briefly on the second point, on straw purchases, you 
focused on straw purchases. I think that may actually be an 
area of potential bipartisan cooperation. The Chairman brought 
it up, and I think all of us agree that if there are those that 
with criminal intent are transferring firearms to felons, that 
there should be strict punishment for that. So that may be a 
productive area of cooperation.
    But I would point out that one of the largest straw 
purchasers we have seen in recent years was, sadly, the United 
States of America in the Fast and Furious program, which sent 
thousands of firearms, deliberately allowed them to go into the 
hands of violent drug cartels, which in turn were used to 
murder hundreds of citizens, innocent citizens in Mexico and at 
least one Federal law enforcement officer. In your experience 
in law enforcement, has the idea of walking guns, allowing 
violent criminals to have illegal guns, is that you have ever 
condoned, and would you characterize that as typical law 
enforcement practice?
    Mr. Heaphy. Senator Cruz, the Fast and Furious Operation 
has been the subject of considerable inquiry. Our own Inspector 
General issued a very lengthy report and found that mistakes 
were made. It was a regrettable incident, and it is one from 
which we have learned. We have very carefully now evaluated our 
approach to undercover investigations and will continue to 
incorporate the lessons learned from that report.
    But I want to go back, if I may, just briefly to your 
earlier question about empirical evidence. Prediction of 
violence or prevention of violent crime is not an exact 
science. It is very, very difficult to find data that any 
individual factor, be it gun membership, be it poverty, be it 
educational opportunity, is tied directly to the murder rate. 
So I think--I understand your question. It is a good question, 
and I appreciate the focus on these murder rates. But it is a 
bit of alchemy to try to come up with a single factor that is 
most determinant with respect to reducing levels of violent 
crime.
    Senator Cruz. Thank you, Mr. Heaphy, and my time has 
expired.
    Chairman Durbin. Senator Franken.
    Senator Franken. Thank you, Mr. Chairman, for holding this 
hearing. I want to thank some folks who are here from Minnesota 
who have been courageous in sharing their own stories of gun 
violence: Mary Johnson, Angela Cradle, Maya and Sam Rahamim, 
and Police Sergeant Mike Dezann. I am looking forward to 
spending some time with you, with each of you tomorrow 
afternoon.
    I also want to extend my condolences to the people in 
Oakdale, Minnesota, who experienced a horrific shooting last 
night.
    I spent some time traveling around Minnesota in the 
aftermath of the shooting at Sandy Hook, and what I have 
learned is that we can honor Minnesota's culture of responsible 
gun ownership while taking some reasonable steps to make our 
communities safer. Gun control is a central part of this, so I 
support a ban on assault weapons and a limit on the size of 
magazines.
    I also believe that we need to improve and expand our 
background check system. Millions of people because of our 
background check system have been denied guns. And it seems 
like there is a consensus being built around the idea that we 
should do a background check on all purchasers of guns.
    Part of improving the background check system involves 
updating the mental health records in the national data base 
and, of course, improving access to mental health is an 
important part of this entire discussion, too.
    What we cannot do is stigmatize mental illness. What we 
must do is improve the way our country helps people who live 
with it. If we are going to talk about mental health, let us 
make it more than just a talking point. Let us make it a true 
national priority.
    I would really encourage all my colleagues to take a look 
at my Mental Health in Schools Act, which is one of the things 
I have been working on in this area. The bill will improve 
access to mental health services for our children so that we 
can catch this early. I have talked to moms who have gotten 
professional help for their children. It has not only change 
their children's lives; it has changed their lives. And I would 
just encourage my colleagues to look at this piece of 
legislation.
    Mr. Heaphy, I asked the Vice President's Gun Violence Task 
Force to move forward with implementing the Wellstone-Domenici 
Mental Health Parity Act, and I want to thank the 
administration for agreeing to do that. It is very important.
    A vast majority of people with mental illness are not 
violent, but there is a very small percentage who can become 
violent if they do not get--if they are not diagnosed and they 
do not get treatment. And I know that you have put a special 
emphasis on community-based crime prevention projects since you 
have become U.S. Attorney.
    Based on your experience, can you talk a bit about why it 
is so important for people to have access to mental health 
services in their communities?
    Mr. Heaphy. Yes, absolutely, Senator. I can talk about this 
issue from the Virginia Tech experience. As I said at the 
beginning, I serve just up the road from Blacksburg, and those 
wounds linger. They never really heal.
    One of the things that we did in Virginia on a bipartisan 
basis was change the way in which we capture mental health 
adjudications in the National Instant Criminal Background Check 
System. Virginia now is really the gold standard for ensuring 
that it is respectful of privacy when folks are adjudicated by 
a judge or civilly committed with mental health issues. Those 
records are put into the National Instant Criminal Background 
Check System. The shooter at Virginia Tech had mental health 
issues but, unfortunately, those records were not. So we have 
focused on this issue, as you said, increasing access to 
treatment for those who need it, but ensuring that when people 
do, are flagged in the system as having issues, that those 
records are in NICS.
    Many States, unfortunately, have not followed Virginia's 
lead and have not put those records in NICS, so that is one of 
the holes in the background check system. The Department has 
supported grants to States to help ensure full NICS compliance. 
Those records need to be comprehensive. But, Senator, as you 
said, it goes all the way back to making sure that the 
treatment is available. That is a crucial component of any 
public safety strategy.
    Senator Franken. Thank you, and my time has run out. Just 
let me emphasize this for everyone listening. The vast majority 
of people with mental illness are no more violent than the 
general population. In fact, they are more often the victim of 
violence than the general population. But there is a very, very 
small minority of people with mental illness who can become 
more violent if they are not diagnosed and if they are not 
treated, and we can catch those people earlier, we can identify 
them, and we can perhaps prevent some of the types of things 
that we have seen lately.
    Thank you, Mr. Chairman.
    Chairman Durbin. Thanks, Senator Franken.
    We have an early bird rule on this Committee, and the 
Republican side has informed us that the next in line is 
Senator Grassley.
    Senator Grassley. Thank you, Mr. Heaphy, for coming. As a 
follow-up to Chairman Durbin's questions on straw purchasers, 
we have heard that all too often law enforcement presents cases 
of suspected straw purchasers to U.S. Attorneys and the cases 
are declined for prosecution for one reason or another. How 
many cases were presented to U.S. Attorneys for suspected straw 
purchasers last year that were declined prosecution?
    Mr. Heaphy. Senator, I do not know exactly. I can get that 
information for you, but I do not have a specific number. I 
know that we did only 44 cases of lie-and-try, so the cases 
where someone applied for a firearms--went through the 
background check and it bounced back.
    Senator Grassley. I will appreciate your answer in writing. 
Thank you.
    [The information referred to appears as a submission for 
the record.]
    Senator Grassley. The title of today's hearing obviously 
has been known, ``Proposals to Reduce Gun Violence: Protecting 
Communities while Respecting the Second Amendment.'' Now, your 
testimony makes no mention of the Second Amendment, so the 
question: Has the Department of Justice taken any position on 
the constitutionality under the Second Amendment of legislation 
pending before the Senate that would ban so-called assault 
weapons?
    Mr. Heaphy. Senator, the Department of Justice and the 
administration understand the impact of the Heller decision, 
which found that Americans have a fundamental Second Amendment 
right to self-defense. But I believe the Heller decision admits 
reasonable restriction on that right--time, place, and manner 
type restrictions. So without opining on a specific measure of 
one of the bills, whether it is or is not constitutional, I 
believe that there are ways to regulate guns respectful of the 
Second Amendment but provide those reasonable restrictions.
    Senator Grassley. So the Department has not taken any 
position on specific legislation. Do you know why they have not 
taken a position yet?
    Mr. Heaphy. The Department supports an assault weapons ban 
and will work hard to ensure that whatever comes out, if one 
comes out, is constitutional, Senator.
    Senator Grassley. The Supreme Court in the Heller decision 
applied a form of heightened scrutiny to laws seeking to impede 
the Second Amendment. What is your understanding of that 
portion of the ruling?
    Mr. Heaphy. My understanding of the ruling is that it 
allows, recognizes the Second Amendment right to defend oneself 
in his home, and the District of Columbia statute at issue in 
Heller impinged upon that because it was an absolute 
prohibition of firearms in the home. It does not go beyond that 
and create a general right to carry firearms anywhere. Again, I 
think that Justice Scalia, as the Chairman pointed out, in the 
Heller opinion did admit that there would be potential 
limitations on the right when time, place, and manner 
restrictions are consistent with that overall right to 
fundamental self-defense.
    Again, there is a sweet spot here, sir, between respecting 
the Second Amendment and everybody's right to defend himself 
and doing what we can to minimize the public safety threats 
that are presented by these dangerous weapons.
    Senator Grassley. Well, what level of scrutiny should be 
applied to address whether or not an assault weapons ban is 
constitutional or not?
    Mr. Heaphy. Sir, I am not familiar enough with the Heller 
opinion to really give you an opinion on that. I am sorry.
    Senator Grassley. Okay. We had Fast and Furious brought up. 
Since I started that investigation, I would like to ask you a 
question on it. But I want to also state that when you said 
that policies have been changed, I have an email here to U.S. 
Attorneys: ``As I said on the call, to avoid any potential 
confusion, I want to reiterate Department policy. We should not 
design or conduct undercover operations which include guns 
crossing the border.'' And so the policy has not been changed 
about encouraging licensed gun dealers to sell--encouraged by 
the Federal Government for licensed gun dealers to sell guns. 
It is only that they are ordered not to do it if they know they 
are going to cross the border.
    So it seems to me to kind of be just a conflict of policy 
for people in Government to say we ought to ban certain guns at 
the very same time you are having licensed gun dealers 
encouraged to sell guns to people illegally.
    In regard to Fast and Furious, as U.S. Attorney would you 
ever support ATF to encourage Federal firearms licensees to 
sell firearms to those they suspect of being straw purchasers?
    Mr. Heaphy. Senator Grassley, we learned a lot from Fast 
and Furious, and the email that you are referring to encourages 
us to carefully monitor all undercover operations. There are 
times when those undercover operations involve criminal 
activity, and unfortunately, a dirty reality of our business is 
that we have to at times, working with our agents, work with 
people that are involved in criminal activity. We have to 
monitor that closely. Part of the problem with Fast and Furious 
was an insufficient level of scrutiny all up the chain. And we 
are hoping that since we have learned lessons from that, we 
will do a better job of protecting public safety as we work 
with undercover investigations.
    Senator Grassley. My time is up. Thank you, Mr. Chairman.
    Chairman Durbin. Thank you, Senator Grassley.
    Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    I would like to thank the family and friends of victims of 
gun violence who are here with us today. This is a very 
critical issue for our country and for our communities.
    To our testifier, you mentioned that the Department 
supports a stand-alone straw purchaser statute. Do you also 
support closing another loophole, which is the purchase of guns 
at gun shows where there is no background check? So my question 
is: Would you also support a strong closing of the loophole 
background check law?
    Mr. Heaphy. Yes, Senator Hirono. Currently it is too easy 
for prohibited persons--felons, drug users, domestic abusers, 
or folks with mental health issues--to evade the background 
check requirement. Rather than go into a licensed Federal 
firearms dealer, they can walk down the street, go to a gun 
show, and with no background check, walk out with a gun. That 
is a gaping hole in the system.
    So we strongly support increasing to effectively a 
universal background check system. It should admit for some 
limited exceptions--intra-family transfers or estate passage of 
firearms. But commercial transactions ought to be run through 
this background check system.
    Senator Hirono. And, of course, we need to improve the 
information that gets into the system.
    We have had a discussion this morning regarding the 
correlation between tough gun control laws and violent crimes 
in places such as Washington, DC, and Chicago. And I am all for 
using facts in evidence to inform our decisions, but it is the 
cause-and-effect conclusions we draw from this kind of 
information that can be very problematic and questionable.
    For example, Hawaii has pretty strict gun control laws, and 
yet we have, I would say, very low--knock on wood--gun violence 
crimes in Hawaii. So, you know, I do not know of any empirical 
evidence showing the cause and effect between weaker gun laws 
and fewer gun violence crimes unless you are aware of any such 
empirical cause-and-effect studies?
    Mr. Heaphy. Senator, I have worked on this issue for 20 
years, again, spent time with victims, spent time with killers, 
with people who have been involved in these acts of violence 
and who are hoping for some leniency by cooperating with us. 
And I cannot say that I know what causes gun violence. I wish 
we did. There is no more pressing problem to me or my 
colleagues in the Department than this. But, unfortunately, it 
is a complicated, layered, contextual problem that has so many 
different factors.
    So I agree with your question, Senator, that it is very, 
very difficult to isolate one cause and tie it very 
specifically to violent crime rates.
    Senator Hirono. Thank you.
    Have you had any experience with bullying in our schools 
leading to violence? Because we had a police officer or a 
police captain, I believe, who testified before the full 
Committee saying that he considered bullying in our schools 
that could lead to violence, that could lead to the easy 
obtainment of guns, and that could lead to tragedy. And he 
acknowledged that as a concern.
    Have you had experience in this area? And if so, what can 
we do to prevent bullying in our schools that could very well 
escalate?
    Mr. Heaphy. Yes, I appreciate that question because it 
gives me an opportunity to talk about a more comprehensive 
anti-violence approach. We cannot just arrest people and think 
that we are going to have a safer community. We have to do what 
we can on the front end to prevent potentially violent 
criminals from getting guns and from perpetrating those awful 
acts. And bullying is part of that, absolutely. We have to do 
what we can to help prevent and provide resources for people 
that are bullied.
    Every U.S. Attorney is trying to implement a very localized 
place-based anti-violence strategy, and in some communities, 
our prosecutors, particularly in the Civil Rights Division, 
have done a lot of work on anti-bullying programs and have 
helped young people appreciate the unfortunate consequences of 
school bullying. And, yes, I think there are stories, very 
difficult stories, where bullying has prompted someone to 
violence.
    So our approach to this problem has to be 360 degrees. It 
cannot simply be ``let us charge people who commit mass 
shootings after the fact.'' It has to also contemplate what we 
can do in advance, bullying and other prevention measures, to 
try to prevent those things from happening in the first place.
    Senator Hirono. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Durbin. Thanks, Senator Hirono.
    Senator Lindsey Graham.
    Senator Graham. Thank you, Mr. Heaphy, for your service to 
our country. Do you own a gun?
    Mr. Heaphy. I do not.
    Senator Graham. Okay. Do any of your close friends own 
guns?
    Mr. Heaphy. Yes. I live in a State in which guns are held 
in high esteem. But I do not. I have young children, Senator.
    Senator Graham. No, I understand.
    Mr. Heaphy. And I do not feel comfortable having a gun in 
our home given the fact that I have young children.
    Senator Graham. Well, that is certainly your right to make 
that decision.
    Under the universal background proposal, if Senator Cornyn 
and I--if I wanted to buy a shotgun, could I do so without 
having to go through a background check?
    Mr. Heaphy. Yes.
    Senator Graham. Okay. Because he is a friend?
    Mr. Heaphy. I am sorry. If you were actually exchanging a 
gun with Senator Cornyn?
    Senator Graham. Yes. I would not have to go through a 
background check?
    Mr. Heaphy. Senator, I think there are a lot of proposals 
that would create exceptions between----
    Senator Graham. Would you agree with that exception? It 
would be a waste of money?
    Mr. Heaphy. I think there should be limited intra-family or 
intra-community transfers that would be excepted from the 
universal background check, yes.
    Senator Graham. So you have not answered my question. John 
and I went hunting a month or so ago. He has got a better 
shotgun than I have, and I actually talked to him about buying 
it. Under the regime being proposed, would I have to go through 
a background check if I bought Senator Cornyn's shotgun?
    Mr. Heaphy. I am just not specifically familiar, sir, with 
whether or not the current legislation would require a 
background check.
    Senator Graham. Size of magazines. Can you envision a 
situation where a law-abiding citizen may need more than a 10-
round magazine to protect their family?
    Mr. Heaphy. Long and extended clip magazines make it much 
easier for people to commit more grievous acts of violence.
    Senator Graham. Well, I understand that. Do you agree that 
mentally ill individuals and felons should not have one bullet?
    Mr. Heaphy. Yes.
    Senator Graham. Do you agree there may be times where a 
mother protecting her two children may need more than six if 
there is more than one perpetrator or the six shots will not 
take the guy down?
    Mr. Heaphy. Senator, we need to be respectful of people's 
right to defend themselves, absolutely.
    Senator Graham. Well, the point is I can envision a 
situation where, like in Atlanta, the revolver--she had a six-
shot revolver. Someone broke into her home. She shot the guy 
five of six times. He was still able to get up and go out the 
door. And they tell me that one-third of all assaults involve 
more than one perpetrator, so I would just make the point that 
I do not think criminals are going to be limited by any 
capacity magazine size law. And if you start restricting the 
amount of--a 10-shot limit, in some circumstances that may 
disadvantage the law-abiding citizens and do not much to the 
criminal.
    Now, on the number of people who actually are prosecuted, 
how many people a year fail the background check?
    Mr. Heaphy. I believe in 2012 it was around 80,000.
    Senator Graham. Okay. And how many of those were false 
positives?
    Mr. Heaphy. A small percentage. I am not certain exactly.
    Senator Graham. Okay. Of those 80,000----
    Mr. Heaphy. I am sorry, Senator. When you say ``false 
positive,'' what exactly do you mean?
    Senator Graham. That you actually were entitled to buy a 
gun, but the system kicked you out.
    Mr. Heaphy. Yes. I think there is an appeal process, and 
there have been a number of times where someone was bounced 
back but then appealed.
    Senator Graham. Right. Do you know the percentages?
    Mr. Heaphy. I think it is small, but I can get you a 
specific figure.
    Senator Graham. Sure.
    [The information referred to appears as a submission for 
the record.]
    Senator Graham. Now, let us nail this down, if we can. Do 
you believe that the best way to deter somebody from misconduct 
is to make sure that prosecution is certain and swift?
    Mr. Heaphy. That is part of--needs to be part of a 
comprehensive solution. Whether it is best or not----
    Senator Graham. No, but in terms of the deterrent aspect of 
using criminal law. I agree with Senator Franken we should do 
something about mental health. I agree with that. But, you 
know, I have been a prosecutor for a while, too, in my older 
days--younger days, sorry. And I thought that if you knew you 
were going to get caught or likely to get caught and the 
punishment was going to be severe, that was a pretty--that was 
a good--do you agree with that general concept?
    Mr. Heaphy. I absolutely do, yes.
    Senator Graham. Okay. Of the 80,000 people who failed 
background checks, what percentage wind up getting prosecuted, 
those who were not false positives?
    Mr. Heaphy. A small percentage.
    Senator Graham. Well, let us put a number on it.
    Mr. Heaphy. Last year, out of the 80,000, I believe U.S. 
Attorneys brought about 44 cases.
    Senator Graham. Forty-four is what percentage of 80,000?
    Mr. Heaphy. A very small percentage. Lawyers do not do math 
very well.
    [Laughter.]
    Senator Graham. And apparently Members of Congress do not 
either. That is why we are $16 trillion in debt. But I think 
there are people on my staff that can run the numbers, and I 
will present is to the Committee. The truth of the matter is we 
are talking about expanding a system where the current system 
is 0000-point-something. I think we have got our priorities 
wrong. I think we should take the current law and enforce it. 
Thank you for your time.
    Chairman Durbin. Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman, and 
thank you for allowing me to sit with this Subcommittee. As you 
know, I am not a Member, and I appreciate it very much. And 
thank you, sir, for being here and for your measured responses. 
It is very much appreciated.
    Mr. Chairman, I would like to put in the record a letter 
written yesterday by Mayors Against Illegal Guns, signed by the 
mayor of Boston and the mayor of New York City and supported by 
850 mayors of both political parties all around this country, 
supporting the assault weapons legislation and the ban on high-
capacity ammunition clips.
    [The letter appears as a submission for the record.]
    Senator Feinstein. I think there are some very good quotes 
in this letter. I will not take the time to read them now, but 
as a former mayor, mayors see what happens on the streets, and 
so I am very grateful for this endorsement and this support.
    Mr. United States Attorney, to the best of my knowledge, 
the assault weapons legislation which existed from 1994 to 2004 
was never struck down by any court in the land. Is that your 
information as well?
    Mr. Heaphy. Yes, exactly, Senator.
    Senator Feinstein. Do you believe it was constitutional?
    Mr. Heaphy. Yes.
    Senator Feinstein. Do you believe that it is possible to 
draft legislation which is reasonable, which exempts over 2,000 
weapons but essentially concentrates on weapons that were 
designed for military use, generally high-velocity weapons?
    Mr. Heaphy. I believe it is possible to craft a law 
consistent with the Second Amendment and with the Heller 
decision that would be constitutional, yes.
    Senator Feinstein. Thank you very much.
    Twenty cosponsors and myself have introduced this 
legislation. I would just like to ask--it is specific, it is 
drafted in bill language--that you take a look at it, and if 
you have any problems with it, that you let us know.
    Mr. Heaphy. I will, Senator. Thank you.
    Senator Feinstein. Thank you very much, and thank you, Mr. 
Chairman.
    Chairman Durbin. Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman.
    Mr. Heaphy, thank you for your service as U.S. Attorney and 
for being here today, and I want to join the other Members of 
the Committee in expressing my gratitude to the family members 
who are here today who have lost a loved one as a result of an 
act of violence. I believe that we owe it to you not to engage 
in tokenism or symbolic acts but, rather, to try the best we 
can to address the causes and to come up with solutions and at 
the same time respecting the rights of law-abiding citizens to 
keep and bear arms, as protected by the Second Amendment. And I 
think it is possible for us to do that.
    But I also think it is important that we need to look at 
the laws that are already on the books, and I know there has 
been some discussion of this, Mr. Heaphy, and forgive me if I 
am repeating it, since I had to leave briefly to go down to 
speak on the floor. But you are aware of the fact that in 2008 
Congress passed a provision that required that the States 
forward for inclusion in the background check data base people 
who were adjudicated mentally ill. You are familiar with that 
law, are you not, sir?
    Mr. Heaphy. Sir, I believe that is voluntary. I do not know 
that States are required to participate in the NICS system and 
make that information part of the system. We strongly encourage 
them to do so, but I believe, unfortunately, it is still 
voluntary.
    Senator Cornyn. Why in the world would we make that 
optional?
    Mr. Heaphy. I do not know, Senator. As I said before, we 
really need to ensure that those relevant records are in the 
background check system.
    Senator Cornyn. Well, my understanding is that it is not 
optional, but it is not being complied with. The General 
Accounting Office points out that while about 1.2 million 
records have been forwarded for inclusion in the NICS criminal 
background check system, that is largely a result of about 12 
States' efforts. And I am glad to say Texas is one of those 
that has the highest--seventh highest rate of sharing of those 
records in the Nation.
    But do you not agree that it would be important to have 
individuals who have been adjudicated mentally ill to have 
those records in the NICS background data base?
    Mr. Heaphy. Absolutely. I would strongly agree with that.
    Senator Cornyn. And if that law is not mandatory now, do 
you believe it should be mandatory? And if it is mandatory and 
it is not being enforced, do you believe it should be enforced?
    Mr. Heaphy. I believe it should be enforced, Senator. I 
believe the way it is structured is that the Attorney General 
has the authority to withhold aid to State and local law 
enforcement in the form of the Byrne and JAG grants, 
percentages of that, if States are not complying and putting 
their mental health and criminal records into the system. And, 
again, there are incentives for States to do that. But as you 
said, that is spotty, and not everyone has the Texas approach 
and puts those records in.
    Senator Cornyn. And would you not think that would be more 
reasonably calculated to protect innocent victims of gun crime 
than other actions that may be more symbolic in nature?
    Mr. Heaphy. I am not sure what would be more or less 
reasonably calculated, but I am certain that if we do not have 
all relevant records in the background check system, it 
undercuts the effectiveness of the background check.
    Senator Cornyn. And I know you have been asked about this 
before, but I cannot resist asking you about it again. People 
who lie on background checks, the record of prosecuting those 
individuals is pathetic. Would you not agree?
    Mr. Heaphy. Well, I am glad you asked because I did not get 
a chance to answer it when Senator Graham asked the question. 
As you know from your experience, Senator Cornyn, we need 
evidence to prove that a crime was committed. And because 
someone applied to get a gun and went through a background 
check and there was a misstatement on the form does not in and 
of itself constitute evidence that it was an intentional 
falsehood.
    The common defense in those cases is, ``I did not know that 
I was prohibited,'' ``I did not know that I had a conviction 
which disqualified me or that I had something in my 
background.'' And that is sometimes credible because, again, 
they could go down the street to a gun show and get the same 
weapon without having had to submit a form. So it is 
difficult----
    Senator Cornyn. So it is credible for them to say, ``I did 
not know I had a conviction,'' but yet to say on the background 
check, ``I have no conviction'' ?
    Mr. Heaphy. Again, Senator, we have to have evidence that 
it was an intentional falsehood. The fact that it was false is 
not enough. It is a difficult case to prove. Even if we prove 
it, Senator Cornyn, fully a third of those cases result, 
unfortunately, in no finding of guilt. Another 37 percent 
result in a sentence of a year or less. We are evaluating every 
case on a spectrum of danger, and the gun background check 
worked there. We focus our resources much more aggressively on 
people that actually obtained firearms and used them, not 
necessarily on the ones where the background check----
    Senator Cornyn. I know the U.S. Attorney's Office and the 
Department of Justice have limited resources and you have to 
prioritize. My concern is that we not pass additional laws that 
will not be enforced and we pat ourselves on the back and say 
we have actually solved the problem or contributed to a 
solution.
    And I see my time is about up. If I could just say for 10 
seconds, Mr. Chairman, I appreciate Suzanna Hupp, one of my 
constituents here today. She has got a chilling story about her 
personal experience of losing her mom and dad in an episode of 
mass violence where 23 people lost their lives in 1991. I think 
she has got some very important testimony for the Committee, 
and I am glad she is here today to share that.
    Thank you.
    Chairman Durbin. Thanks, Senator Cornyn.
    I will recognize Senator Blumenthal, and correct the 
record: Newtown, Connecticut. I mentioned it earlier 
incorrectly.
    Senator Blumenthal. Thank you, Mr. Chairman, and I want to 
express my appreciation for your holding this hearing, Senator 
Durbin, and to my colleagues for being here today. And I want 
to thank you, United States Attorney Heaphy, for your 
extraordinary service in one of the busiest Federal districts 
in the country. I had your job in Connecticut some years ago, 
and I always regarded it as the best job I ever had.
    Mr. Heaphy. I have heard that before, Senator.
    Senator Blumenthal. So thank you for your excellent 
service.
    Mr. Heaphy. Thank you.
    Senator Blumenthal. I want to really begin by thanking the 
Newtown families who are here today. I know that some of them 
are. I may not know of all of them. Chris and Lynn McDonnell 
are here, and Po Murray and Miranda Pacchiana. And I want to 
express my regret at a statement that was made, I think within 
the last 24 or 48 hours, by a lobbyist for the National Rifle 
Association who said that his group was hoping that the 
``Connecticut effect'' would pass so that his group could be 
more effective in its lobbying.
    Their presence today, the families being here today, and 
tonight at the State of the Union I think is a statement and a 
picture worth a thousand words that the Connecticut effect will 
last and that it will be a call to action.
    The NRA lobbyist's comment--it happened to be a lobbyist 
for the Wisconsin chapter of the NRA--is callous and offensive, 
and I call on the NRA, Wayne LaPierre, to repudiate and reject 
it. I think it is an insult to all of us in America, but most 
especially to the 26 families in Newtown who directly suffered 
this loss.
    Your position, sir, is a nonpolitical position. You are a 
law enforcer. Is that correct?
    Mr. Heaphy. Yes, sir, and I have been a career prosecutor 
and served in multiple administrations, yes.
    Senator Blumenthal. And I appreciate your coming before us 
today in that capacity.
    When folks talk about existing laws--and you have just made 
refinancing to it--I think many of us on this Committee are 
aware, but maybe not most Americans, that you often know that a 
crime has been committed, and you know who has committed it, 
but you need more than that knowledge on your part. You need 
evidence to go into court and prove it. Is that correct?
    Mr. Heaphy. Exactly right, yes.
    Senator Blumenthal. So when the NRA or any of our witnesses 
or Members of this Committee say that there have not been 
enough prosecutions, very often the reason is you do not have 
enough evidence to make those prosecutions.
    Mr. Heaphy. Unfortunately, that is sometimes correct, yes.
    Senator Blumenthal. And so my feeling is, my strong belief 
is that we ought to do everything possible to enable more 
effective prosecutions under existing laws and, as Senator 
Cornyn has very aptly just said, under any new laws, but focus 
on enforcement. And so let me ask you about the ban that 
currently exists on certain categories of people buying 
firearms--felons, fugitives, people who are seriously mentally 
ill, people under court orders for domestic abuse.
    Right now, with respect to a very large number of firearms 
purchases, about 40 percent when they are private sales or so-
called gun show sales, you simply have no way of having the 
evidence to enforce that existing law. Am I correct in saying 
that?
    Mr. Heaphy. If there was no background check, sir, and they 
obtained the gun end-running that system, then you are exactly 
right. We have no evidence.
    Senator Blumenthal. And the current law also prohibits 
purchases of ammunition to those very same categories of 
people. Is that correct?
    Mr. Heaphy. Yes.
    Senator Blumenthal. Without a background check now, do you 
have any effective way of enforcing that law?
    Mr. Heaphy. No. Again, it is too easy for those dangerous 
persons that you have cited to get around the background check. 
That gets guns into their hands too readily, and those guns are 
used with dangerous regularity on our streets, making all of 
our jobs more difficult.
    Senator Blumenthal. And the same is true of ammunition, is 
it not? There are simply no checks, no criminal background 
checks whatsoever on ammunition purchases, correct?
    Mr. Heaphy. That is right.
    Senator Blumenthal. So that you have no practical way, with 
all due respect to the immense powers that you have as a 
Federal prosecutor to enforce that law?
    Mr. Heaphy. That is right.
    Senator Blumenthal. It is essentially dead letter.
    Mr. Heaphy. All too often that is right, yes.
    Senator Blumenthal. Let me ask you about the Second 
Amendment, and I think you have done a great job of describing 
that balance that applies to all constitutional rights. None of 
them is absolute. Is that correct?
    Mr. Heaphy. That is right, exactly.
    Senator Blumenthal. And, very often, constitutional rights 
butt against each other. There is a tension between those 
constitutional rights.
    Mr. Heaphy. That is life in a democracy, exactly.
    Senator Blumenthal. And it is one of the geniuses of our 
Constitution that it manages to reconcile fundamental rights 
that sometimes are in tension.
    Mr. Heaphy. That is right.
    Senator Blumenthal. So these proposals that have been made 
for reasonable regulations are perfectly consistent with 
everybody's right to have a gun, go hunting, use it for target 
shooting, because reasonable regulation--you used the word 
``restriction,'' but ``regulation,'' ``restriction''--are 
consistent and, in fact, the genius of our Constitution.
    Mr. Heaphy. Just exactly right, Senator. I just cannot 
reiterate strongly enough that the President and the Attorney 
General and all of us who work in law enforcement respect the 
Second Amendment, are not trying to remove the basic right to 
self-defense for people to own firearms. We are trying to, as 
you said, tinker with the balance and provide reasonable 
restrictions that keep dangerous weapons out of the hands of 
people that use them, that do grievous things with them.
    Senator Blumenthal. And nobody has ever suggested that a 
criminal, a convicted felon or a fugitive or a drug addict or 
someone seriously mentally ill, dangerous to himself or others, 
or a domestic violence abuser has a fundamental Second 
Amendment right to have a firearm?
    Mr. Heaphy. Those acts from their past remove their Second 
Amendment right to possess a firearm.
    Senator Blumenthal. Or to buy ammunition.
    Mr. Heaphy. Exactly.
    Senator Blumenthal. Thank you very much.
    Chairman Durbin. Thanks, Senator Blumenthal.
    Senator Hatch.
    Senator Hatch. Well, thank you, Mr. Chairman. I am happy to 
welcome all of you folks here today, and especially you, Mr. 
Heaphy, and especially my old friend and debating partner, 
Professor Larry Tribe, who I have a lot of respect for. Happy 
to have you here.
    I just want to make an observation about the 
constitutionality of the so-called assault weapons ban. Under 
Heller, you said Heller allows what you called ``time, place, 
and manner'' restrictions, although you said you did not read 
the whole decision. But the assault weapons ban is not a time, 
place, or manner restriction. It is an absolute ban, and I just 
wanted to make that clear. Plus maybe I can make something else 
a little more clear, too. The distinguished Senator from 
California, a dear friend of mine, indicated that the assault 
weapons ban was never stricken down as unconstitutional. But 
the fact of the matter is that that ban expired before the 
Heller decision. So who knows what would have happened had it 
really been tested? And the distinguished Senator from 
California may be right on that.
    Now, Mr. Heaphy, I want to congratulate you for your work 
here--you have been an excellent witness--and for the work that 
you have done, all your professional service and career. But 
you also indicate in your testimony that the Department of 
Justice focuses on prosecuting people who evade the background 
check system and acquire weapons illegally. They do not focus 
on those who attempted to purchase the firearm through the 
background check system but were unsuccessful.
    Now, I think this shows what has been obvious to many 
people for a long time, that criminals do not walk into a gun 
shop to buy weapons and submit themselves to a background 
check. They get them on the street. You know it, I know it.
    Mr. Heaphy. That is exactly right, sir.
    Senator Hatch. Okay. In other words, the people who we 
least want to have a weapon are the least likely to be caught 
by a background check. So, you know, some on our side wonder 
why then do we raise all this fuss about background checks when 
we have them in existence but they are not going to be abided 
by, anyway.
    Let me ask you this question. I am sure you a familiar with 
Project Exile, which was launched by the Department of Justice 
in 1997 in Richmond, Virginia. It was a collaborative effort 
among State, local, and Federal prosecutors and law enforcement 
officers to vigorously enforce existing Federal gun laws. 
Richmond residents were put on notice through billboards and 
bus advertisements that all violations of the Federal firearms 
laws would be prosecuted, and defendants faced 5-year mandatory 
minimum sentences. As a result of this collaborative effort, 
372 persons were indicted on Federal gun violations and 440 
guns were seized.
    Now, Richmond realized a 36-percent decrease in homicides 
and I think a 41-percent decrease in firearm homicides. Are 
there any plans for any similar collaborative efforts to 
enforce existing Federal gun laws, to your knowledge?
    Mr. Heaphy. Yes, Senator Hatch, thank you for the question. 
Exile was very successful, and it is a great model for a 
working partnership between Federal authorities and State and 
local officials. It was a program in which the Commonwealth's 
attorney, the U.S. Attorney, the ATF, and Richmond Police came 
together to comprehensively focus on violent crime. At the time 
that Exile existed, there was a huge disparity between Federal 
law in terms of punishment and State law. That disparity has 
changed. So today in Richmond, more of those cases that would 
have come Federal are prosecuted at the State level. Mike 
Herring, the Commonwealth's attorney, will take those cases and 
get every bit as much of a sentence as we could get in Federal 
court. And there are Exile-type programs going on around the 
country.
    East St. Louis, Illinois, Senator Durbin's home town, has 
seen a spike in gun prosecutions just since Steve Wigginton, 
the U.S. Attorney, has been there, because State and local 
authorities came together, decided we have got to do something 
about East St. Louis. There are burning fires of violence in 
that community, and we have to pool our resources and work 
collaboratively, and that has led to an increase. On the 
southwest border, in Senator Cornyn's district, a very similar 
effect. So we are still doing Exile-type programs, Senator.
    Senator Hatch. Good. Let me ask one other question. In each 
of the mass killing tragedies in Newtown or Aurora or 
Columbine, the killers violated numerous, in some cases 
literally dozens of local, State, and Federal laws. They were 
able to obtain and use their weapons of choice and either 
avoided or actually passed background checks. Each time 
politicians say they will ensure that it never happens again, 
and, of course, they turn around and they call for passing more 
laws.
    Now, don't these tragic experiences show that simply 
putting more laws on the books will not prevent individuals who 
are either ill or evil from harming others?
    Mr. Heaphy. Senator, I wish that I could reassure this 
Committee and the people sitting here that we could pass a law 
that would prevent----
    Senator Hatch. I wish we could, too.
    Mr. Heaphy. But we cannot do that. There is no question 
that no matter what we do, unfortunately, there will be 
dangerous people that get access to weapons that continue to 
perpetrate acts of violence. We are trying to make that more 
difficult. We are trying to create more road blocks, make it 
harder for them to commit those acts of violence. It is not 
going to be perfect. I wish that it was. We are just trying to 
make it more difficult to have to jump over additional hurdles 
in order to commit those grievous acts.
    Senator Hatch. Well, you have been an excellent witness, 
and I want to thank you, Mr. Chairman.
    Chairman Durbin. Thanks, Senator Hatch.
    Mr. Heaphy, thanks for your testimony. We appreciate it 
very much.
    Mr. Heaphy. Thank you, Senator.
    Chairman Durbin. We may have some follow-up questions sent 
to you. I hope you can respond in a prompt manner.
    Mr. Heaphy. We will.
    Chairman Durbin. Thank you.
    Chairman Durbin. I would like to ask the second panel to 
please come to the table, and while they are on the way, first, 
I ask to put in the record a letter from the Charlottesville, 
Virginia, police chief about the productive working 
relationship with our witness in the first panel, Mr. Heaphy. 
Without objection, it will be entered into the record.
    [The letter appears as a submission for the record.]
    Chairman Durbin. For those who are wondering why Senators 
are moving back and forth here, some have other Subcommittee 
meetings that they are attending. In addition, on the floor of 
the Senate, starting at 11:30 we have votes on the Violence 
Against Women Act. There will be several amendments, and so we 
are going to do our best to get the testimony of this panel 
here. I hope we are not interrupted or stopped, but that would 
be the only reason. We just have floor business that has to be 
taken care of before we can proceed.
    I am going to ask the witnesses at the table, now that they 
have all sat down, to stand up, if they will. It is the custom 
of the Committee to administer the following oath. Raise your 
right hand, please? Do you affirm that the testimony you are 
about to give before the Committee will be the truth, the whole 
truth, and nothing but the truth, so help you God?
    Professor Tribe. I do.
    Ms. Wortham. I do.
    Ms. Hupp. I do.
    Mr. Cooper. I do.
    Professor Webster. I do.
    Chairman Durbin. Thank you.
    Let the record indicate that the witnesses have answered in 
the affirmative.
    Chairman Durbin. I am going to read a brief background of 
each of the witnesses and then call on them.
    Our first witness is going to be Professor Laurence Tribe, 
a well-known friend of this Committee. He is the Carl Loeb 
University Professor and Professor of Constitutional Law at 
Harvard Law School, where he has taught since 1968. He has 
argued 35 cases before the U.S. Supreme Court. He has written 
over 100 books and articles, including a treatise, ``American 
Constitutional Law.'' He has received his undergraduate and law 
degrees from Harvard, clerked for the California Supreme Court 
Justice Matthew Tobriner and U.S. Supreme Court Justice Potter 
Stewart. And I am going to give him the floor after I introduce 
the other witnesses so that each one of them is known before 
they speak.
    Our next witness after Professor Tribe is Sandra Wortham. 
Mrs. Wortham is testifying in her personal capacity today. She 
works as deputy director of the Chicago Alternative Policing 
Strategy Office of the Chicago Police Department. She is 
responsible for the department's domestic violence-related 
training, outreach, and services. She worked as a court-
appointed attorney with the Circuit Court of Cook County, 
representing indigent clients in contested adoption litigation. 
She received her undergraduate degree from Howard University 
and her J.D. from Chicago Kent College of Law. Thank you for 
being here.
    Our next witness will be Suzanna Hupp. Suzanna is the 
associate commissioner for Veterans Services for the State of 
Texas. She previously served as a member of the Texas House of 
Representatives from 1997 to 2007. She is the author of ``From 
Luby's to the Legislature: One Woman's Fight Against Gun 
Control.'' She attended the University of Texas at El Paso and 
Texas Chiropractic College, graduating with a degree in 
chiropractic medicine. Ms. Hupp, thank you for being here.
    Our next witness will be Charles Cooper. He is the chairman 
of the Washington law firm of Cooper and Kirk, previously 
served as Assistant Attorney General for the Office of Legal 
Counsel under President Reagan, also worked in the Justice 
Department's Civil Rights Division and in private practice. He 
received his undergraduate and law degrees from the University 
of Alabama, clerked for Judge Paul Roney of the Fifth Circuit 
and Justice William Rehnquist of the U.S. Supreme Court.
    And our final witness will be Professor Daniel Webster, 
certainly a suitable name for a Senate witness. He is professor 
of health policy and management at Johns Hopkins Bloomberg 
School of Public Health, serves as the director of the Center 
for Gun Violence Policy and Research. He has published over 70 
articles in scientific journals, most of which focused on the 
prevention of gun violence, youth violence, or intimate partner 
violence. He earned his bachelor's degree from the University 
of Northern Colorado, his master's in public health from the 
University of Michigan, and his doctorate from the Johns 
Hopkins School of Public Health.
    I see we are having a changing of the guard from the first 
panel audience here, and I hope that they can leave in a quiet 
manner, as they are, and we will proceed with the testimony.
    Professor Tribe, I know that you have made a great personal 
sacrifice to be here with us today, and I appreciate it very, 
very much. The floor is yours.

    STATEMENT OF LAURENCE H. TRIBE, CARL M. LOEB UNIVERSITY 
    PROFESSOR, HARVARD LAW SCHOOL, CAMBRIDGE, MASSACHUSETTS

    Professor Tribe. Thank you, Mr. Chairman. Nothing like the 
sacrifice that many of the people that you have invited have 
made, the victims of violence.
    Chairman Durbin and Members of the Committee, I am honored 
by your invitation that I testify on an issue of such vital 
national importance. And it is especially humbling to be here 
in the presence of so many victims of senseless gun violence, 
and many others who have lost loved ones in a hail of bullets 
that should never have been fired.
    When we recall the horror that 20 first-grade children had 
been slaughtered in Sandy Hook Elementary School, we have to 
remember that every 4 days nearly 20 more children and more 
than 100 adults die in gun homicides around this country. We 
may not know their names or see their faces, but they were not 
anonymous or nameless or invisible to those who loved them and 
will never hold them in their arms again.
    The question before this Subcommittee is whether sensible 
measures to reduce rampant gun violence, not necessarily to 
stop it--we will never do that--but to reduce it--the violence 
that cuts short all these lives--is beyond our reach because of 
the Second Amendment, and my answer to that is an emphatic no.
    Until the 1990s, nearly every constitutional expert, 
including Chief Justice Warren Burger and Judge Robert Bork, 
treated the Second Amendment as irrelevant to any personal 
right to keep or bear arms on the theory that the amendment 
concerned only each State's well-regulated militia. But by the 
end of the last century, a different understanding had emerged, 
one focusing on individual self-defense independent of the 
militia. I supported the emergence of that new understanding, 
and the Supreme Court made it the law of the land in the Heller 
and McDonald decisions in 2008 and 2010.
    That pair of decisions demolishes the slippery slope theory 
of those who oppose basically all firearms regulation on the 
view that once we permit any new firearms regulation at all, we 
will be inviting the Government step by step to come ever 
closer to disarming the people, leaving only the police and 
military with firearms.
    With Heller and McDonald securely on the books, the Supreme 
Court, in its own words, took certain policy choices off the 
table and thereby cleared the path for reasonable regulations 
to be enacted without fear that those policy choices would 
either open the door to unlimited Government control or be 
imperiled by exaggerated interpretations of the Second 
Amendment. As Justice Alito put it in McDonald, ``There is no 
longer any basis for such doomsday proclamations.''
    Justice Scalia, speaking for the Court in Heller, said it 
at the end of his opinion: ``Under our interpretation, the 
Constitution leaves open a variety of regulatory tools for 
combating the problem of gun violence in this country.''
    Now, the Court was explicit in saying what some of those 
tools include. They include--and each time I am quoting from 
the Court--``conditions and qualifications on the transfer of 
firearms to keep them out of dangerous hands, including felons 
and the mentally ill.'' They include ``longstanding regulatory 
measures to keep firearms out of particularly sensitive 
places.'' They include complete bans of firearms that are ``not 
typically possessed by law-abiding citizens for lawful 
purposes, such as short-barreled shotguns,'' and of firearms 
that are ``especially dangerous or unusual, such as M-16 rifles 
and the like.'' That was a list that the Court explicitly said 
was not meant to be exhaustive.
    They include other regulations designed to protect public 
safety without cutting into the core right that the Second 
Amendment protects, the right of self-defense in the home. 
Those legitimate other regulations certainly encompass bans on 
illegal straw purchasers and gun trafficking, both of which can 
totally frustrate any system of background checks or gun 
registration. And the kinds of regulations that do not trigger 
close scrutiny under the Second Amendment obviously include 
universal background checks or registration systems for the 
simple reason that systems with loopholes and less than 
universal coverage are calculated to be evaded by the very 
people who have no right to bear arms under the Second 
Amendment, people we cannot safely entrust with lethal weapons.
    Finally, those other obviously valid regulations, ones that 
do not trip the Second Amendment's trigger, have to include 
bans on high-capacity magazines and especially lethal weapons 
that someone can keep firing for ten rounds or even more 
without reloading. Banning those weapons gives people a chance 
to escape and gives the police a chance to interrupt the 
slaughter.
    The category of valid regulations under Heller, in my view, 
also covers bans on weapons designed for assault or military 
use rather than for lawful civilian uses. And the Court did not 
merely say that such regulations would ultimately survive 
Second Amendment scrutiny. It said that Heller would not even 
``cast a shadow of doubt on such measures should they be 
considered in the future.''
    Now, we should have no illusions that adopting measures 
like these nationally will completely solve the epidemic of gun 
violence in America. More will be needed. We clearly need to 
address mental health issues as well as other potential 
contributors to gun violence, such as violent video games, 
films that glorify murder and mayhem and other aspects of our 
violent culture. But if we do nothing until we can do 
everything, we will all have the blood of innocent human beings 
on our hands and will besmirch the Constitution in the process.
    Just in closing, let me say that our Constitution, as many 
have wisely observed, does not make the perfect the enemy of 
the good. And whatever else it is, it is not a suicide pact--a 
suicide pact that condemns us to paralysis in the face of a 
national crisis of domestic bloodshed.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Professor Tribe appears as a 
submission for the record.]
    Chairman Durbin. Professor Tribe, thank you.
    Sandra Wortham.

       STATEMENT OF SANDRA J. WORTHAM, CHICAGO, ILLINOIS

    Ms. Wortham. Good morning.
    Chairman Durbin. If you would push the button.
    Ms. Wortham. There we go. Good morning, Chairman Durbin, 
Members of the Committee. Thank you for the opportunity to 
speak today. It is really an honor.
    We have discussed a lot about law this morning, and I am an 
attorney. I love the law. I respect it. I think it is great. 
But I would like to talk a little bit about life and the human 
impact that this issue has on me, my family, and the families 
we have here today. So to do that, I would like to take us back 
to May 19, 2010.
    On May 19th, I had a good day. I was having a good day. I 
went to line-dancing class with my mother. We did it every 
Wednesday that spring. As you can imagine, that was quite 
entertaining. When we got home, a friend asked me to go scout 
birthday party locations with her. It was the big 2-5, so I of 
course said yes. We went out and we had a good time.
    On my way home, I got a call from my mother, which was not 
unusual because we speak a thousand times a day. We still do. 
But this call was different. She was crying this time, and she 
said, ``Sandy, come home.'' And she continued to cry, and she 
said, ``They tried to rob him.'' So the ``him'' she was 
speaking of was my older brother, Thomas E. Wortham IV.
    Thomas and I were raised in a great family, full of 
character but great. Our parents taught us we could do 
everything, be everything, the world was ours. But they also 
taught us that we had a responsibility to our community and to 
people who did not have the opportunities that we had, and that 
is how Thomas lived his life. He dedicated his professional 
life to service. He served two tours of duty in Iraq with our 
National Guard, and he was also a Chicago police officer, 
protecting the South Side of Chicago, where we lived.
    Earlier that week, Thomas had traveled here to Washington, 
DC, to participate in activities for National Police Week 
honoring our fallen law enforcement officers and then traveled 
to New York City to run in a race in honor of Alex Valadez, a 
Chicago police officer who had been killed in the line of duty 
the year before. So on that evening of May 19th, Thomas had 
gone to our parents house when I left to show them pictures of 
Police Week activities. So he finished, they ate dinner, and he 
went to leave. And as he went to leave, my father went with him 
to the door to watch him out.
    Now, I was not there, obviously, but according to reports, 
this is what happened. Two men approached Thomas as he went to 
get on his motorcycle, pulled a gun on him, and tried to take 
his motorcycle. Now, Thomas was a police officer, so he was 
armed, told them he was a police officer. My dad, standing at 
the porch, saw this happening. My dad was also armed. He had a 
gun in the house. He went in the house to get the gun. He came 
back out. So there was an exchange of gunfire between the 
offenders, my brother, and my father.
    Now, when I got the call from my mother, I had no idea how 
bad this was. No idea. I just knew she was crying, but she is a 
crier sometimes, so I just knew I needed to get home. But 
shortly after I got the call, I looked ahead of me, and traffic 
was stopped. The police had blocked off all the streets on the 
way to our house. So I got out and started to run. I just said, 
``Well, let me just run home and see what is going on.'' And as 
I ran, an ambulance passed me. And still, you know, in my mind, 
I had no idea this had anything to do with Thomas because I had 
no idea how bad it was. But I am running down the street, and 
in retrospect, it was like a movie, because it is like slow 
motion. So an ambulance passes me. But I know now that Thomas 
was in the ambulance because he had been shot, and that is why 
all the streets were blocked off.
    So I go to the house. They rush us to the hospital. We get 
there. We waited. We prayed a lot. We waited. But Thomas died.
    Strangely, the week before--or a couple weeks before Thomas 
died, he did an interview with the Chicago Tribune because 
there had been two shootings across the street from our house 
just in the couple of months before that, and he was the 
president of the Park Advisory Council. And in the interview--I 
will read the direct quote--he said, ``When people think of the 
South Side of Chicago, they think violence.'' And he went on to 
say, ``We are going to fix it so it does not happen again.''
    So Thomas is dead, obviously, but I am here today and my 
parents are here today, I think all of these families, we are 
here today because we still believe that we can fix it. So as I 
understand it, this hearing has been called to discuss the ways 
we can respect the Second Amendment and protect our 
communities. And I have to be very honest--and I am so sorry 
that some of the people left because I was very--I am just 
confused as to where we are having disagreement about this. 
Like I said, I understand the law, I respect our Constitution, 
but to me this is not about taking away the lawful right to own 
guns. We are not anti-gun people. My family is not an anti-gun 
family. My brother and father were Chicago police officers and 
carried guns most of the time. That is how I was raised. But 
they were trained, and they were law-abiding citizens. I value 
and respect the rights that are provided by our Constitution. 
However, I find it very hard to believe that our founders 
intended those rights to go so unreasonably unchecked.
    It is not about the right to take away--it is not about the 
right to lawfully own guns. This is about trying our best to 
keep guns out of the hands of the people like people who killed 
my brother. They did not walk into a gun store and buy a 
handgun, because if all the reports are right, they would not 
have been able to do so. They got their gun the same way that 
many ill-intentioned people receive guns in this country--they 
bought it on the street.
    It is also a reality that their gun did not arrive in 
Chicago on its own. Again, according to reports, it was 
trafficked from a pawn shop in Mississippi. And, Chairman, you 
spoke about this earlier. According to news reports, a gun 
trafficker went to Mississippi, used straw purchasers to buy 
multiple handguns from that shop, and then brought those guns 
to Chicago to sell to gang members. And you spoke very well 
about this earlier, and that is a huge problem that we are 
talking about. And for me, as someone who has been personally 
affected by this, I cannot accept that we cannot do better than 
that. I cannot accept that we cannot fix that problem. If we 
know, as everybody here does, that many, many criminals obtain 
their guns through street purchases easily, then I feel like we 
have a responsibility to address that problem, and we have an 
opportunity through this body to do that. The only people who 
should be disturbed by common-sense gun laws are people who 
should not have guns in the first place. Okay? Law-abiding 
citizens should not be disturbed by the proposals here today.
    So when we speak about the Constitution and all the rights 
afforded by the Constitution, I think we would also be well 
served to remember the words of another important document in 
our country's history. So we talked earlier about life, 
liberty, and the pursuit of happiness. Well, those things were 
taken away from Thomas when he was 30, and quite frankly, our 
rights to those things have been affected by this situation.
    So we talk about lawful gun ownership.
    My brother owned a gun. My father owned a gun. But the fact 
that they were armed that night did not prevent Thomas' murder. 
So we need to do more to keep guns out of the wrong hands in 
the first place. And I do not think that makes us anti-gun 
people. I think it makes us pro-law-abiding citizens who want 
to live life without the constant fear of this violence as a 
result of guns.
    I am not here to say that any one law would have changed 
what happened to Thomas, but I am here to say I think we can do 
better.
    This is not about me, Thomas, my family, or any one family 
in general. This is about our country, and we have a system to 
effect change, to do something about this, and I think it is 
time that we do that.
    Thank you.
    [The prepared statement of Ms. Wortham appears as a 
submission for the record.]
    Chairman Durbin. Ms. Wortham, thank you for your testimony, 
and I still remember your brother's service and the comments 
that were made by some of his friends in the National Guard and 
others in law enforcement. He was an amazing individual, and it 
is sad that we have lost him. But I am sure that he is looking 
down and smiling at his mom and dad and sister standing up for 
him today.
    Ms. Wortham. Well, thank you.
    Chairman Durbin. Thank you so much.
    Ms. Hupp.

           STATEMENT OF SUZANNA HUPP, LAMPASAS, TEXAS

    Ms. Hupp. Thank you, Mr. Chairman, Members. I am speaking 
for myself today and not in any official capacity.
    I wanted to mention right off the bat that when you opened 
the proceedings here, you asked all of the victims of gun 
violence to stand, and I hesitated. But, honestly, I do not 
view myself as a victim of gun violence. I view myself as a 
victim of a maniac who happened to use a gun as a tool. And I 
view myself as a victim of the legislators that we had at the 
time that left me defenseless. So that is why I hesitated.
    I did not grow up in a house with guns. I am not a hunter. 
But when I was 21 and I moved out on my own, I was given a gun 
by a friend and taught how to use it. And then I had a patient 
when I was in the city of Houston who was the district 
attorney--an assistant district attorney in Houston, and he 
actually convinced me to carry the gun, which at that time was 
illegal in the State of Texas. He said, ``Suzie, you do not see 
this stuff. I do. You need to carry your weapon, and nobody is 
going to mess with you.''
    Several years later, in 1991, my parents and I went to have 
lunch at a local cafeteria with a friend of mine who was 
managing the cafeteria that day. We had finished eating when 
all of a sudden this guy drove up a pick-up truck through the 
floor-to-ceiling window and came crashing in and ended up maybe 
15 feet from me. Of course, we thought it was an accident, and 
I rose up and began to go help the people that he had knocked 
over. But then we heard gunshots. And my father and I 
immediately got down on the floor. We turned the table up in 
front of us. My mom got down behind us. And the shooting 
continued.
    Now, at that time, in 1991, you know, we were not seeing 
these mass shootings that we are seeing now, so I was waiting 
for him to say something like, ``All right. Everybody put your 
wallets up on the tables,'' or, you know, I thought maybe it 
was a hit. Maybe there was somebody important in there. But the 
shooting continued.
    I am going to tell you, it took a good 45 seconds, which is 
an eternity, to realize that the guy was simply going to walk 
around, take aim, pull the trigger, go to the next person, take 
aim, pull the trigger. He was executing people.
    When I did realize it, I thought, ``I have got him. I have 
got this guy.'' I reached for my purse that was on the floor 
next to me, realized I had a perfect place to prop my arm. He 
was up, everybody else in the restaurant was down. And then I 
realized that a few months earlier I had made the stupidest 
decision of my life. I had begun leaving my gun out in my car 
because I did what most normal people would do. I wanted to be 
a law-abiding citizen. I did not want to get caught with a gun 
and maybe lose my license to practice. I remember looking 
around and thinking, ``Well, great. What do I do now? Throw a 
salt shaker at him?''
    At that point my dad took my attention, and he started to 
raise up. He said, ``I have got to do something. I have got to 
do something. He is going to kill everybody in here.'' And I 
tried to hold him down by the shirt collar. But when he saw 
what he thought was a chance, he went at the guy. You have to 
understand, though, a man with a gun in a crowded room has 
complete control. My dad covered maybe half the distance, and 
the guy just turned and shot him in the chest. My dad went down 
in the aisle maybe 7 or 8 feet from me, and he was still alive 
and still conscious, but as dreadful as this may sound, I saw 
the wound and I basically wrote him off at that point.
    The good news is that it made the gunman change directions 
slightly. Instead of coming directly toward me, he went off to 
my left. And at that point, somebody way at the back of the 
restaurant broke out another window. And I remember hearing 
that crash and thinking, ``My God, here comes another one.'' 
But instead I saw people getting out that way. So I looked up 
over the top of the table. When the gunman had his back to me, 
I stood up, I grabbed my mother by the shirt collar, I said, 
``Come on, come on, we got to run. We got to get out of here.'' 
And my feet grew wings.
    I made it out that back window, ran into my manager friend 
that was coming out a side door, and he said, ``Thank God you 
are all right.'' And I said, ``Yes, but dad has been hit and it 
is really bad.'' And I turned to say something to my mother and 
realized that she had not followed me out.
    Now, to wrap the story up, the police officers--several of 
them were patients of mine--told me a few days later--they 
filled in the gaps. They said that they were actually one 
building away in a conference, and in an odd twist of gun 
control fate, the hotel where they were having their 
conference, the manager there did not want them to be wearing 
their guns and potentially offending any of her clients or 
customers. So she had asked them to leave their guns in their 
cars. So precious minutes were lost while they retrieved their 
guns from their locked cars. They said that when they got over 
there and worked their way in through the broken window behind 
the pick-up truck, they did not know who the gunman was. There 
were bodies everywhere. But they said they did see a woman out 
in the aisle, on her knees, cradling a mortally wounded man. 
They said they watched as the 30-something-year-old man walked 
up to her. They said she looked up at him, he put a gun to her 
head, she looked down at her husband, and he pulled the 
trigger. That is how they knew who the gunman was. They said 
all they had to do was fire a shot into the ceiling, and this 
guy immediately rabbitted to a back bathroom alcove area. He 
exchanged a little gunfire with them and then put a bullet in 
his own head.
    Twenty-three people were killed that day, including my 
parents. It did not occur to me at the time, but mom was not 
going anywhere without dad. They had just had their 47th 
wedding anniversary.
    So you may think that I was angry at the guy that did it. 
But the truth is, that is like being mad at a rabid dog. You do 
not be mad at a rabid dog. You take it behind the barn and you 
kill it, but you do not be mad at it. But I have got to tell 
you, I was mad as heck at my legislators because I honestly 
believed that they had legislated me out of the right to 
protect myself and my family. And I would much rather be 
sitting in jail right now with a felony offense on my head and 
have my parents alive to know their grandchildren.
    With that, I thank you.
    [The prepared statement of Ms. Hupp appears as a submission 
for the record.]
    Chairman Durbin. Thank you very much.
    We have 6 minutes left on this roll call, so, Mr. Cooper, I 
am going to recognize you. And I cannot believe a Senator is 
going to ask Daniel Webster to wait, but if you do not mind, 
Mr. Cooper, if you will testify, we will take a recess and then 
return soon. We have three votes, so it may be half an hour to 
40 minutes. I am sorry. And maybe it is sooner.
    Mr. Cooper.
    Mr. Cooper. You would like for me to go ahead?
    Chairman Durbin. Please.

            STATEMENT OF CHARLES J. COOPER, PARTNER,
             COOPER AND KIRK, PLLC, WASHINGTON, DC

    Mr. Cooper. Thank you very much, Mr. Chairman and Members 
of the Subcommittee. I am very honored to be here today to 
discuss this important subject matter and to share my thoughts 
with you. I am especially humbled to hear the testimony, the 
emotional testimony that we have had from the victims of 
senseless violence, and it makes it difficult to return to dry 
legal subject matters, but that is my task.
    The Supreme Court's recent decisions in Heller and McDonald 
provide authoritative guidance for interpreting and applying 
the Second Amendment. So it is important first to identify the 
pertinent principles established by those decisions.
    First, the Second Amendment protects an individual right 
that belongs to all Americans. Indeed, the Court repeatedly 
emphasized in both Heller and McDonald that the inherent and 
pre-existing right to self-defense is the core and the central 
component of the Second Amendment right itself.
    Second, the fundamental Second Amendment right to arms is 
entitled to no less respect than other fundamental rights 
protected by the Bill of Rights. As the Court emphasized in 
McDonald, it is not to be treated as a second-class right or 
singled out for special--and specially unfavorably--treatment.
    Third, the Second Amendment is enshrined--and these are the 
Court's words--``enshrined with the scope [it was] understood 
to have when the people adopted [it], whether or not future 
legislatures or (yes) even future judges think that scope too 
broad.''
    Now, this passage from Heller is an express admonition that 
all government officials, including Members of this body, of 
course, are oath-bound to respect and obey the command of the 
Second Amendment as it was understood in 1791.
    Fourth, and relatedly, the line between permissible and 
impermissible arms regulations is not to be established by 
balancing the core individual right protected by the Second 
Amendment against purportedly competing government interests. 
This balance has already been struck, for the Second Amendment, 
as the Court put it, ``is the very product of an interest-
balancing by the people.''
    With these principles in mind, let us recall the text of 
the Second Amendment. It provides that ``the right of the 
people to keep and bear Arms, shall not be infringed.'' The 
amendment is thus one of the very few enumerated constitutional 
provisions that specifically protects the possession and use of 
a particular kind of personal property--``arms.'' It follows 
that there are certain arms that law-abiding, responsible adult 
citizens have an absolute, inviolable right to acquire, 
possess, and use. Indeed, the Heller Court made clear that the 
Second Amendment's ``core protection'' is no less absolute than 
the First Amendment's protection of the expression of unpopular 
opinions. This is what it said: ``The Second Amendment is no 
different'' from the First Amendment. ``And whatever else it 
leaves to future evaluation, it surely elevates above all other 
interests the right of law-abiding, responsible citizens to use 
arms in defense of hearth and home.''
    Now, let me repeat that. The amendment ``elevates above all 
other interests the right of law-abiding, responsible citizens 
to use arms in defense of hearth and home.'' The Government, in 
other words, may no more prevent a law-abiding, responsible 
citizen from keeping an operable firearm in his bedside table 
drawer than it may prevent him from keeping a copy of the 
collected works of Shakespeare or his Bible or his Koran in 
that drawer.
    The key question, then, is what arms are protected by the 
Second Amendment. Heller and McDonald answer that question. 
Those weapons that are, in the Court's words, ``of the kind in 
common use . . . for lawful purposes like self-defense. 
Conversely, ``the Second Amendment does not protect those 
weapons not typically possessed by law-abiding citizens for 
lawful purposes.''
    Now, applying that ``common use'' test, Heller flatly and 
categorically struck down the District of Columbia's handgun 
ban because it amounted to a ``prohibition of an entire class 
of `arms' ''--I am quoting--``that is overwhelmingly chosen by 
American society for [the] lawful purpose [of self-defense].'' 
The constitutionality of the pending proposals to ban certain 
``arms'' thus turns on whether the banned semiautomatic rifles, 
shotguns, and pistols are of the kind that are in common use 
for lawful purposes in this Nation. And even as Professor Tribe 
concedes, standard magazines holding more than ten rounds and 
the firearms outfitted for them are by any reasonable measure 
in quite common use in the United States. Because S. 150 
outlaws firearms and standard magazines that are of the kind in 
common use for lawful purposes, it is unconstitutional. But 
even if one were to apply a balancing test, S. 150s ban on 
automatic assault firearms and standard magazines could not 
pass even intermediate scrutiny.
    And, Mr. Chairman, my time is up, and hopefully I will be 
able to address these points further in the questions and 
answers.
    Thank you.
    [The prepared statement of Mr. Cooper appears as a 
submission for the record.]
    Chairman Durbin. Thanks, Mr. Cooper, and thanks for your 
patience and understanding, particularly Professor Webster.
    We are going to stand in recess. I will return as quickly 
as I can.
    [Whereupon, at 11:48 p.m., the Committee recessed.]
    [Whereupon, at 12:27 p.m., the Committee reconvened.]
    Chairman Durbin. This hearing of the Constitution 
Subcommittee will reconvene. I thank you for your patience. We 
had several votes on the floor, now breaking for lunch, but we 
are going to keep working.
    Professor Webster, thanks for your patience, and please 
proceed.

         STATEMENT OF DANIEL W. WEBSTER, PROFESSOR AND
  DIRECTOR, JOHNS HOPKINS CENTER FOR GUN POLICY AND RESEARCH, 
                      BALTIMORE, MARYLAND

    Professor Webster. Thank you, Mr. Chairman. Thank you for 
the opportunity to testify before you today.
    In 2010, guns were used in more than 31,000 deaths, 11,000 
of which were homicides. Guns were also used in over 300,000 
non-fatal crimes. The social cost of gun violence that year was 
estimated to be $174 billion, $12 billion of which was directly 
absorbed by taxpayers.
    Last month, I and more than 20 other leading researchers 
and gun policy experts gathered at Johns Hopkins to share our 
research at a summit on reducing gun violence in America. I 
refer to the Committee the full findings from the summit that 
were just published in a book that I edited with Jon Vernick. 
This group developed consensus policy recommendations that we 
believe would reduce gun violence, including the following: 
establishment of a universal background check system, 
strengthening laws to reduce firearms trafficking, expanding 
incentives for States to provide information about 
disqualifying mental health conditions to the NICS system, 
banning the future sale and possession of assault weapons and 
large-capacity ammunition magazines. These policies enjoy broad 
public support and, according to Professor Tribe and 
constitutional experts from across the ideological spectrum, 
would not violate constitutional rights.
    I would like to summarize the evidence that refutes common 
arguments against these proposals.
    The first is that our Nation's high rate of homicide has 
nothing to do with gun availability. Yet when we compare the 
United States with other high-income countries, our rate of 
homicide is 7 times higher because our rate of homicides with 
guns is 20 times higher. This gross disparity cannot be 
attributed to the U.S. being more violent or crime-ridden 
generally because our rates of non-fatal crime and adolescent 
fighting are average among high-income countries. Much of the 
difference is likely due to the weaknesses in our laws that 
allow dangerous people to have guns.
    Another claim is that gun control laws do not work because 
criminals will not obey them and will always find a way to get 
a gun through theft or the illegal market. This faulty logic 
could be used to argue against the need for any type of law 
because lawbreakers do not obey laws. The truth is that laws 
such as background check requirements for all gun sales and 
other laws to combat gun trafficking help law enforcement to 
keep guns from prohibited individuals.
    Opponents of gun control point to criminals' obtaining guns 
from the underground market as proof that regulations are 
pointless. But the weaknesses in current Federal firearms laws 
are the very reason that criminals are able to obtain firearms 
from those underground sources. Data from a national study of 
State prison inmates indicates that about 80 percent of gun 
offenders acquired their handguns in transactions with 
unlicensed private sellers, a category of transactions that 
current Federal law exempts from background checks. Only 10 
percent of gun offenders report that they stole the guns that 
they used in crime.
    This argument from opponents of stronger gun laws also 
implies that criminals have no difficulty in obtaining guns. 
This is also inconsistent with the facts. If guns are so easy 
for criminals to get, why is it that only 29 percent of 
robberies reported in the National Crime Victimization Survey 
did the robber use a gun?
    Several studies which I have conducted have shown that laws 
that increase gun seller and purchaser accountability, 
including universal background checks, lead to fewer guns being 
diverted to criminals. Missouri's repeal of its permit 
licensing law for handgun sales in August 2007 provides an 
example of the value of such laws. Missouri's law had required 
prospective handgun purchasers, whether they were purchasing a 
handgun from a licensed gun dealer or a private seller, to pass 
a background check to obtain a permit. We found that the 
diversion of guns to criminals shortly after the retail sale 
abruptly doubled and the gun homicide rate increased by 25 
percent after Missouri repealed its law. During this same time 
period, gun homicide rates nationally dropped 10 percent.
    In our new book, researchers reported several examples in 
which State laws prohibiting perpetrators of domestic violence, 
violent misdemeanants, and the severely mentally ill from 
possessing firearms did indeed reduce violence. Such laws would 
be even more effective if gaps and weaknesses in Federal laws 
were addressed.
    Opponents claim that we do not need to pass new gun laws. 
We just need to enforce the current ones. The problem, of 
course, with this argument is that Federal gun laws are 
currently written in ways that make it very difficult to hold 
firearm sellers accountable, as was described earlier in 
previous testimony. There is no statute defining or outlawing 
straw purchases or gun trafficking. Standards of evidence are 
high and penalties are weak relative to the seriousness of the 
crime of supplying criminals with firearms.
    The Tiahrt amendments protect licensed gun dealers who sell 
many guns that are subsequently recovered from criminals by 
restricting the use of crime gun trace data. I have published 
research showing how this law increases the diversion of guns 
to criminals from suspect gun dealers.
    Opponents also claim that requiring background checks for 
all gun sales is too great of a burden on gun purchasers to 
justify. We just completed a large national survey in which we 
found that 84 percent of gun owners and 74 percent of NRA 
members reported that they supported laws requiring a 
background check for all gun sales.
    In the 14 States that currently require background checks 
for all handgun sales, including private sales, 89 percent, 
nearly 9 out of 10 gun owners supported universal background 
checks. Apparently, the overwhelming majority of gun owners 
consider any inconvenience associated with a pre-gun-sale 
background check to be acceptable because they want to keep 
guns out of the hands of dangerous people.
    It has been claimed that the only thing that can stop a bad 
guy with a gun, is a good guy with a gun. This call to arms 
suggests that the best way to reduce violence is to allow and 
even encourage legal gun owners to carry loaded guns in public 
places. The best evidence indicates that so-called right to 
carry laws do not reduce violent crime and may actually 
increase aggravated assaults. Calls to do away with 
restrictions on concealed gun carrying suggest everyone who can 
legally own a gun is a good guy or gal. But research on people 
who are incarcerated for crimes committed with guns in States 
where the conditions for legal gun ownership mirror the Federal 
standards, 60 percent of those gun offenders were legally 
qualified to possess a gun just prior to committing the crime 
with a gun that led to their incarceration. Many had prior 
convictions for crimes involving violence, guns, drugs, or 
alcohol abuse.
    Finally, some say that banning the sale of assault weapons 
and large-capacity magazines would not enhance public safety. 
Assault weapons and guns with large-capacity ammunition feeding 
devices are overrepresented in mass shootings, and these mass 
shootings involving assault weapons typically involve more 
victims per incident than mass shootings with other weapons. 
Although mass shootings or shootings in which an assailant 
fires more than 10 rounds are relatively uncommon, their 
victims and family members of victims of mass shootings here 
today who would not have experienced the pain and loss of gun 
violence if their assailants had not been able to legally 
purchase assault weapons and large-capacity magazines.
    [The prepared statement of Professor Webster appears as a 
submission for the record.]
    Chairman Durbin. Thank you. Thank you for your testimony.
    Mr. Cooper, let me address initially the Heller decision as 
you saw it and the subsequent decisions, and I am going to ask 
Professor Tribe to respond or comment. It strikes me that what 
Heller said is the absolute prohibition of gun ownership is 
unconstitutional under the Second Amendment. What I hear you 
argue on the other side--and you even used the provocative word 
``absolute'' in your testimony--is that there is an absolute 
right of individuals to own certain arms, common arms.
    I am wondering how you square that with the language of 
Heller where Justice Scalia went on to specify all of the 
regulations that he would find permissible, and he said this is 
not an exhaustive list, but he went through a list of 
regulations that would limit the right to own arms, certainly 
inferring they are not--ownership and use is not absolute. He 
included weapons not typically possessed by law-abiding 
citizens for lawful purposes, prohibitions on the possession of 
firearms by felons and the mentally ill, laws forbidding the 
carrying of firearms in sensitive places, laws imposing 
conditions and qualifications on the commercial sale of arms, 
laws prohibiting the carrying of dangerous and unusual weapons, 
laws regulating the storage of firearms to prevent accidents.
    If you concede even one of those things, then to say that 
the Second Amendment right to bear arms is absolute just kind 
of falls on its face. How long has it been since we have had 
restrictions on the ownership of machine guns under the Federal 
law? It has been quite a few years, if I am not mistaken. It 
may go back to the era of the 1930s, if I am not wrong about 
that.
    So how do you reconcile that? How can you say this is an 
absolute right in light Justice Scalia's statement?
    Mr. Cooper. Thank you, Mr. Chairman, for that question 
because I want to hasten to clear up confusion about my use of 
that term. It is not my position that the Second Amendment is 
unlimited. It never has been, and it certainly could not be 
after Heller makes clear that the kinds of limitations on the 
Second Amendment right that you have just articulated 
accurately from the decision itself are historically bound 
limitations and permissible restrictions that governments can 
place upon gun ownership and gun use.
    What I tried to be careful to say, though, is that at its 
core--and this I believe that Heller does make clear. At its 
core, that is--and regardless of what one may argue is the core 
of the Second Amendment, it is clear from Heller that it is the 
use of arms--``arms'' as that term is used in the Second 
Amendment itself--for self-defense within the home, the place 
where it is most acute, as the Court said, for the use of arms 
to be available.
    It is not my position that any arms are protected by the 
Second Amendment. You have just mentioned M-16s. I do not think 
that an individual has, a law-abiding individual has a right to 
an M-16, even in his home. But it is my view that there are--
that within the universe of arms, there are certain arms that 
are absolutely protected. And you cannot completely disarm an 
individual in his home. Heller, if it stands for nothing else, 
it stands for that.
    And so the question before the Committee, before you, Mr. 
Chairman, and the others, is: What are those protected arms? 
Where does that line fall?
    Chairman Durbin. Okay----
    Mr. Cooper. And it certainly falls at M-16s.
    Chairman Durbin. I am going to let the professor respond 
here to this argument that we are talking about the instrument, 
the weapon, as opposed to many other things. Tell me your 
reaction to this.
    Professor Tribe. Well, Mr. Chairman----
    Chairman Durbin. You need to turn your--thank you.
    Professor Tribe. Thank you. Much as I like and respect my 
friend Chuck Cooper, I just do not think he answered your 
question. The Supreme Court did not suggest in Heller or 
McDonald or in any other case that uniquely within the 
Constitution the Second Amendment protects a certain fixed set 
of objects, that somehow magically the M-16 machine gun floats 
from our 1791 history as out of the range of protection. It is 
a much more nuanced inquiry. It is an inquiry into how common 
the weapon is. It is an inquiry into how essential it is to 
self-defense. And it is an inquiry into how unusually dangerous 
it is.
    Now, the suggestion that I get from Mr. Cooper's written 
statement in which he had more of a chance to elaborate is 
basically that a regulation of guns is allowed only if that 
regulation fits within a kind of specific historical pedigree, 
and somehow he gets that pedigree I am not sure quite where--
from the 1930s, from the 1790s. But history has never been the 
sole determinant of the meaning of any constitutional 
provision, for Justice Scalia or for any other member of the 
Court. It certainly is not for the First Amendment. It is not 
for the Contract Clause. And more than any other constitutional 
provision, the objects addressed by the Second Amendment 
inherently evolve with technology. Guns today are exceptionally 
different from guns even a hundred years ago, let alone guns at 
the time of the framing. And in light of the Second Amendment's 
peculiarly close relationship with technology, it would make 
even less sense to be bound solely by history.
    In his prepared statement, Mr. Cooper quoted from, I think 
it was, Chicago v. McDonald where the Court said that the 
Second Amendment is like the other amendments. It is subject to 
a consideration of competing constitutional claims, like claims 
to life, liberty, security, and--here is the language--``it is 
not to be singled out for special treatment.''
    And what I think Mr. Cooper is doing is the very thing that 
the Supreme Court said is not to be done. He is elevating the 
Second Amendment above all of the other values. Of course, the 
Court does not think that the Second Amendment should be 
subject to re-evaluation and rejiggering and rebalancing just 
because we live in the 21st century. But he, as all of the 
examples that you I think carefully enumerated, is clearly open 
to the idea that a whole range of regulations designed not to 
strip people of their right of self-defense but to balance that 
right, to accommodate that right to the severe dangers that we 
have seen these weapons provide, that that is permissible.
    Chairman Durbin. So if I can, if Senator Cruz would allow, 
I want to ask one more question and then turn over to him. Two 
weeks ago when we had this hearing, I asked the head of the 
NRA, Mr. LaPierre--I gave him an illustration of something that 
had happened to me as a politician back in Illinois. When I sat 
down with people who feel--members of his organization who feel 
very strongly about the Second Amendment and told them my 
views, they said, ``You do not get it. You just do not 
understand it. It is not about sporting, hunting. It is not 
even about defending my home or self-defense. It is about my 
right to bear arms so that I am adequately armed if the 
Government turns on me, so that I can suppress tyranny if 
someone should turn on me.''
    And I asked Mr. LaPierre, is that the standard? I expected 
him to say no, but he did not. He said, ``In the historic 
context of the Second Amendment, that is what it was about. 
This was a brand-new Nation. They had just thrown off the 
tyranny of England, and they wanted to preserve,'' in Mr. 
LaPierre's words, ``the right to bear arms to protect those 
basic freedoms as individuals.''
    Now what we are finding is something interesting growing 
out of this mind-set. It is a form of nullification which we 
are seeing evidence of. In my home State of Illinois, there are 
sheriffs, duly elected sheriffs of counties who have publicly 
stated that they will not enforce any Federal laws restricting 
the Second Amendment. They have taken on the name of ``Oath 
Keepers.'' I have some of their literature in front of me.
    I would like for you to comment on the history of the 
Second Amendment and this view of the right of an individual to 
defend himself, herself, against a Government that may be 
tyrannical. Is that built into the Second Amendment?
    Professor Tribe. Well, Justice Scalia, in a very erudite, 
historical discussion in Heller, talked about how part of the 
historic origin of the need to codify the Second Amendment was 
exactly the sense that shortly after the Revolution and when we 
were still a forming Nation, when we really did not have a 
Government under a rule of law that had conformed itself to a 
new Constitution, that that was one of the elements. But he 
makes it clear that to make the Second Amendment serve that 
purpose today, we would have to let every individual have his 
own rocket launcher, his own tank. I mean, if the Government of 
the United States were ever to turn on any of us as 
individuals, it would not be enough to have a handgun or even a 
semiautomatic weapon.
    So, clearly, the purpose has now become one of self-defense 
against marauders, against criminals, against errant individual 
police officers, but not against the entire Government.
    And you mentioned nullification and the Oath Keepers. We 
have had a history of claims by States that they could nullify 
the operation within their own jurisdiction of Federal laws 
that they did not agree with. It was a bloody history. It was 
settled, I think, by the Civil War, if I remember my history 
correctly, and it is not a history that I would want to relive.
    The Oath Keepers, like anybody else, are entirely free to 
agitate, litigate, argue for their own view of the law, but as 
Justice Scalia said in 1990, ``. . . democratic government must 
be preferred to a system in which each conscience is a law unto 
itself . . .'' And the Supreme Court of the United States said 
in 1960 that nullification and ``interposition is not a 
constitutional doctrine. If taken seriously, it is illegal 
defiance of constitutional authority.''
    Chairman Durbin. Thank you.
    Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman. I would like to 
thank all of the witnesses for your time and preparation and 
being here. I apologize that with votes on the floor of the 
Senate and also other Committee hearings that not all of us 
were able to be here for this very learned testimony.
    I would like to give particular thanks to Ms. Hupp, a 
constituent from the State of Texas, whose testimony I think 
was moving and powerful, and your personal life experience I 
think is very important for this debate. And I would urge 
anyone interested in assessing what the proper standard is for 
protecting our right to keep and bear arms to watch Ms. Hupp's 
testimony, to see her personal experience of the importance of 
the right to keep and bear arms to protect ourselves and to 
protect our family.
    I would also note, in the interest of full disclosure, that 
as a law student I took constitutional law from Professor 
Tribe, and that my very first employer in private practice was 
Chuck Cooper. And with both of you on each end of this table, I 
would simply say you are both held harmless.
    [Laughter.]
    Senator Cruz. Should I make any mistakes of constitutional 
law, I will take the brunt of all of that myself rather than 
attributing any blame to either one of you.
    Mr. Cooper, a lot of discussion today has been had that the 
Second Amendment allows what is described as reasonable, 
common-sense regulations. And ``reasonableness'' is a term that 
encompasses a lot.
    I would like to understand the scope of the argument that 
was made by Washington, DC, and Chicago in the Heller case and 
the McDonald case. As I understand it, both Washington, DC, and 
Chicago, with the support of the great many groups who are now 
calling for gun control regulation, made the argument that the 
Second Amendment right to keep and bear arms does not protect 
any individual whatsoever. And if I understand that correctly, 
that would mean, under their interpretation, that this Congress 
could pass a law that says it is a Federal offense, it is a 
crime for any American to own any firearm whatsoever--pistol, 
shotgun, rifle--any firearm is hereby criminalized.
    Am I correct that the position that was advocated in those 
cases is just that radical?
    Mr. Cooper. It was just that sweeping, Senator Cruz. The 
claim made by the cities in those cases was that the Second 
Amendment protects only a collective right, a right relevant 
only with respect to the organized militia. It was rejected by 
the Supreme Court, and that rejection reiterated and reaffirmed 
in McDonald, it rejected initially in Heller.
    The Court said--Mr. Chairman, this refers back to your 
earlier question. The Court was quite clear that concerns by 
the Founders and the framing generation about tyranny and the 
notion that a standing army could disarm the populace, disarm 
the people, was at the root of the codification in the Bill of 
Rights of the Second Amendment.
    It was not the core concern, however, of that founding 
generation and of the people at the time. The core concern, the 
central component, according to the majority in Heller, was 
self-defense. And it also recognized the lawful purpose of 
hunting. So people had an individual, fundamental right, 
Senator Cruz, to keep and bear arms for those lawful purposes, 
the core of which--and I have earlier characterized it as 
absolute, and I reiterate that--the core of which was to keep 
an operable firearm in the home for the purpose of self-
defense.
    Senator Cruz. And, Mr. Cooper, am I correct, the first 
argument in those cases was that it was not an individual right 
at all?
    Mr. Cooper. Yes.
    Senator Cruz. Or that it was not incorporated against the 
States in McDonald?
    Mr. Cooper. Just a collective right.
    Senator Cruz. But the second argument was that even if it 
was, that a total ban on firearms, as Washington, DC, and 
Chicago had, constituted reasonable, common-sense gun control, 
even if it did protect your right? In other words, it was a 
right that could be legislated entirely out of existence?
    Mr. Cooper. That is--a right that could include a sweeping 
and comprehensive ban on the possession of an operable firearm 
in the home.
    Senator Cruz. Now, Professor Tribe, many have made 
reference to Justice Scalia's opinion in Heller that recognized 
that there are some limits on the Second Amendment. Am I 
correct, though, that Heller actually went further than that 
and enumerated some specific examples: namely, a ban on felons 
possession firearms Heller said was permissible under the 
Second Amendment; a ban on what Heller characterized as 
``dangerous and unusual weapons,'' such as M-16 machine guns, 
satisfied the Second Amendment. Heller did not once suggest 
that the sort of restrictions here--in terms of when it was 
enumerating examples of restrictions, the sort of restrictions 
currently being considered by the Senate, Heller did not say 
those would be permissible, did it?
    Professor Tribe. Well, it certainly, Senator Cruz, did not 
have these in front of it. But it said in Footnote 26 that the 
examples it gave were only examples. And if there is any 
regulation that could survive Second Amendment scrutiny, it is 
the kind of regulation that is being considered, namely----
    Senator Cruz. Well, but it did say that what was critical 
was whether the particular weapons were in common use at the 
time. Is that correct?
    Professor Tribe. That is not, with all respect, Senator 
Cruz, quite correct. It said that if they are not in common use 
at the time, as the handgun had been, then they are out of 
contention for Second Amendment protection. But being in common 
use at the time did not in itself guarantee that they were 
within the core. Otherwise, if you flood the market with 
machine guns, with M-16s, so that they are suddenly in common 
use, then they would get the kind of protection the Court said 
they did not have.
    Senator Cruz. Although M-16s currently are functionally 
illegal for the public to enjoy, fully automatic machine guns--
--
    Professor Tribe. That is right. But if you flood the 
market, it would no longer be constitutional to outlaw them if 
it were true that just being in common use was enough. That is 
why the Court had three criteria.
    Senator Cruz. But they are not in common use right now, are 
they?
    Professor Tribe. They are not. But the Court said----
    Senator Cruz. Okay. And a final question because my time 
has expired. With the Chairman's indulgence, I would like to 
ask a final question of Ms. Hupp, which is: If you look at the 
Nation of Australia, which in 1997 banned guns, Australia saw 
from 1995 to 2007 sexual assaults and rape increase 29.9 
percent and violent crime increased 42.2 percent, largely after 
they had banned guns altogether.
    In contrast, the United States during that same time saw 
violent crime decrease 31.8 percent and rape decrease 19.2 
percent.
    To my mind, that data suggests that allowing law-abiding 
citizens to arm themselves, and in particular protecting the 
right of women to protect themselves, is an important safeguard 
against violent offenses.
    Are you aware of any data or any argument to the contrary 
that stripping women of the right to defend themselves does not 
make them more vulnerable to violent predators?
    Ms. Hupp. Well, you are asking me to provide, I believe, 
some statistical evidence that I do not have with me. Common 
sense, I believe--we have talked about common-sense gun laws, 
and saying something is common sense does not necessarily make 
it so. But common sense tells me that if my aged grandmother in 
a wheelchair is approached by three thugs with baseball bats 
wanting her Social Security check, if she pulls out a revolver, 
now all of a sudden she is on equal footing.
    If I may, I would like to offer a couple of things that I 
believe could be done to help eradicate these mass shootings 
that seem to be so prevalent in the last couple of decades. One 
thing is that we could--that you all could encourage States to 
get rid of gun-free zones, because is it not fascinating that 
nearly all of these mass shootings that we have seen have 
occurred in gun-free zones, places where there are so many 
people that are like fish in a barrel? These mass shootings do 
not occur at the dreaded gun show. They do not occur at NRA 
conventions or skeet and trap shoots. They occur where madmen 
want to go and be able to shoot people who are defenseless. 
Murder and crimes of passion have been occurring in this world 
since the dawn of man, and nothing--nothing--that your 
Committee can do will change that, unfortunately.
    The second thing I would strongly recommend is I would 
encourage--or I would ask you all to encourage the media, not 
legislate but encourage the media to quit using the murderers' 
names. These people typically come from a background of 
bullying or feeling as if they are worthless and have no 
ability to change their lives, so they know there is an aspect 
of glory to these mass murders. They know they are going to go 
down in the history books. And if you can ask the media to stop 
using their names after that first day--and, second, if the 
person actually does not put a bullet in their own head or they 
are not killed in the process, when they go to trial, fuzz out 
their faces. Stop encouraging their infamy.
    Senator Cruz. Thank you very much, Ms. Hupp, and my time 
has expired.
    Chairman Durbin. Senator Graham.
    Senator Graham. Thank you all. In the last round of 
questioning, I asked a question of our first witness: What 
percentage of people who fail a background check actually get 
prosecuted? And I should have asked actually get convicted, 
because it is even less. So you can check our math, but he said 
there were about 80,000 background checks, and some of them are 
false positives, a small number, so that would definitely 
affect the numbers, but not a whole lot. There were 44 people 
prosecuted. I do not know exactly how many were convicted. But 
in 2010, there were 76,142 FBI denials referred to ATF. There 
were 62 charges referred for prosecution, and 13 resulted in a 
guilty plea. But when you do the math, it is 0.000055 of a 
percent, and that gets to be where I really cannot put my arms 
around it.
    So the point I guess I am trying to make to the Committee 
and the public at large, if you expand background checks and no 
one ever suffers the consequences of lying or making a straw 
purchase, I do not think it is going to do much good.
    Professor Tribe, do you agree with the concept that people, 
to obey the law, they have to fear that there will be a 
consequence if they break it?
    Professor Tribe. I certainly do, and I think that the fear 
of a really serious consequence rather than a slap on the wrist 
would make a difference. But the key point, to me, is that when 
you have so many loopholes so that somebody who thinks he is 
going to flunk a background check unless he lies goes to a gun 
show or buys on the Internet, of course, the system of 
background checks is not going to work. It works only better--
it works better the more universal you make it.
    Senator Graham. Well, would you agree that criminals 
universally will try to get a gun outside the law?
    Professor Tribe. And they will try to violate the law in 
every way. I agree.
    Senator Graham. Absolutely. So it is never really 
universal. It is really about law-abiding citizens, what we 
expect of them. And I guess my point is this number to me is 
startling. I think if you are looking for some common ground, 
Mr. Cooper, it seems to me this would be a good place to start. 
Try to find, if it is a resource problem, let us dedicate some 
money. If it is an attitude problem, let us adjust attitudes. 
But in all honesty, to the panel, I do not think any expansion 
of background checks is going to be a deterrent until somebody 
in a real way suffers the consequences under the current 
system.
    So when you say people fall through the cracks, I would say 
there is a hole a mile wide in the current system--I mean, it 
is just a flood gate--that your chance of being prosecuted for 
violating a background check or providing false information is 
probably a lot less than being struck by lightning or hit by a 
meteor. So I do not know what those numbers are, but I would 
say let us focus on that.
    Now, Dr. Tribe, when it comes to defining the 
constitutional parameters of what you can do up here to 
regulate gun ownership, one is common usage. There were two 
other----
    Professor Tribe. Right. The two others, Senator Graham--
thank you for giving me a chance to get to them--were the 
degree of unusual dangerousness, and that was not simply 
another way of saying common use; that is, of course, all guns 
are dangerous or they would be useless. But a gun that can 
spray bullets without being reloaded is more dangerous. And the 
third criteria was how vital it is to self-defense.
    Now, none of those things can be answered in a kind of 
easy, black-and-white way, because in a sense the more 
dangerous a gun is, the more useful it also is for self-
defense.
    Senator Graham. Well, that is a good point, and I guess 
that is what I am trying to tell the public.
    Could you put our chart up about the different guns? Do we 
have it?
    Ms. Hupp, I think we all agree that any weapon--one bullet 
in the hands of a mentally unstable person is one too many. Do 
you all agree with that concept? Any gun should be denied 
someone who is mentally unstable?
    Ms. Hupp. Yes.
    Senator Graham. Okay, and I think everybody would. And we 
do not want felons, because that is already the existing law.
    Now, a circumstance you have described very eloquently, the 
circumstance you found yourself in, Ms. Hupp, but there is a 
case in Atlanta recently, Dr. Tribe, of a lady who was 
defending her home against a home invader. She was home with 
twin daughters, 9 years old. She ran up to the closet, hid in 
the closet. She was on the phone to her husband. The guy 
followed up the steps, broke into the closet. She had a six-
shot revolver. She emptied the gun, hit him five of six times--
it was a .38 revolver--and he was still able to get up and 
drive away. Now, I have been told that one-third of all attacks 
involve more than two people.
    So is it unfair for Congress to say that in the hands of a 
mother defending her children against a home invader, six 
rounds may not be enough, ten rounds may not be enough? In that 
situation I wish she would have had 15 or more because six 
rounds were not able to do the job. Does that make sense to you 
how I could think that way?
    Professor Tribe. Well, it makes a certain kind of sense, 
Senator Graham, but it is an argument that has no limit, 
because if she had a machine gun, she might have been even 
safer, or, you know, if she had a hand grenade, better still, 
blow them all out of the water.
    Senator Graham. But here is where democracy works. I do not 
want her to have a machine gun or a hand grenade. I just do not 
want her to be limited to ten bullets when the real world--
everything is a balance. She may need more than ten. And the 
mentally unstable person does not need more than one.
    Now, the second series of weapons, after natural disasters 
you have had mobs roam around areas that are lawless. Basically 
there is no power or the police cannot get there. Katrina, 
Sandy, Haiti, you name it. But you have got three homes: one 
home, the homeowner has no gun; the second home has a shotgun; 
the third home, they have an AR-15. Mr. Cooper, what home do 
you think would be best protected?
    Mr. Cooper. I would rather be in the home that has the AR-
15, Senator Graham. But a shotgun would come in very handy as 
well. And I think that your comments about the Atlanta episode 
really bring into very sharp focus why this magazine ban is so 
misguided in addition to being unconstitutional.
    Senator Graham. There are over 4 million high-capacity 
magazines out on the market, right?
    Mr. Cooper. There are, and----
    Senator Graham. And criminals are likely to get them no 
matter what we do up here.
    Mr. Cooper. They will undoubtedly get them.
    Senator Graham. And the only person that could be really 
affected is the law-abiding person who could be limited. Does 
that make sense?
    Mr. Cooper. Absolutely.
    Senator Graham. Now, we can have great disagreements about 
how far the Second Amendment goes, and there are limits, just 
like freedom of speech. So I just hope the Committee will 
understand a good place to start, Mr. Chairman, is taking the 
laws we have and bring about a sense of you better not violate 
that law because something bad will happen to you. And when you 
are at 55 of one/one hundred thousandths in prosecution, we got 
a ways to go.
    Thank you all.
    Chairman Durbin. Thanks, Senator Graham. I appreciate you 
coming back. I know this has been tough on our schedule and 
tough on your schedule, but thank you for being part of this 
important hearing.
    Ms. Hupp, your story about your parents is heartbreaking 
and touching, really. I agree with Senator Cruz. It is 
something that everyone should hear, even those who were not 
here today. I would like to ask you a couple questions about 
some things that you have said.
    You stated--again, what you said before--that nearly all 
mass shootings in recent years have occurred in gun-free zones. 
The Mayors Against Illegal Guns did an analysis of every 
reported mass shooting, defined by the FBI as involving four or 
more people being killed, between January 2009 and January of 
this year. Of the 43 mass shootings by FBI definition, 14 of 
those mass shootings--about a third--took place in public 
places that were considered gun-free zones--one-third, gun-free 
zones. The rest took place in private homes or public places 
where concealed-carry was permitted.
    In light of this analysis, do you still stand by your 
statement that ``nearly all mass shootings in recent years have 
occurred in gun-free zones'' ?
    Ms. Hupp. Yes, I would, and the reason I say that is 
because I would like to know what the numbers are--you 
mentioned that they said four or more they are calling a mass 
shooting?
    Chairman Durbin. By FBI definition.
    Ms. Hupp. But certainly the ones that you and I hear about 
when we turn on the news are more like ten or more or six or 
seven or more. And in all of those cases that I can think of, 
they have occurred in places where guns were not allowed. And I 
believe that the four or five category that you are talking 
about, that has a different intent behind it. You mentioned 
that they were typically in homes?
    Chairman Durbin. No. It said the rest took place in private 
homes or public places where concealed-carry was permitted.
    Ms. Hupp. Okay. In a private home situation, I am assuming 
that most of those are going to be cases where you have some 
family member who has gone berserk, and I believe it is a 
different scenario. The one thing that I can assure you is that 
having a gun is not going to prevent somebody from coming in 
and shooting their estranged wife and the person sitting next 
to them. It is not.
    Chairman Durbin. So let me ask you this question----
    Ms. Hupp. But it will prevent the high body bag count.
    Chairman Durbin. Illinois has the distinction, my home 
State, of the last State in the Union without a concealed-carry 
law. They are currently debating it in the General Assembly. 
And there are a lot of choices to make in terms of concealed-
carry.
    The Violence Policy Center reported that since May 2007 
there have been at least 499 people, including 14 law 
enforcement officers, shot and killed either by concealed-carry 
permit holders or by gunmen in the four States where there is 
no permit at all required. These shootings include incidents 
such as:
    June 6, 2010, the murder of four women in Hialeah, Florida, 
by a man who had reportedly served time in a Cuban prison but 
had a concealed-carry permit under Florida law;
    The April 4, 2009, killing of three Pennsylvania police 
officers by a white supremacist who had a concealed-carry 
permit even though a former girlfriend had a protection order 
against him;
    And July 23, 2011, the murder of five people at a roller 
rink in Grand Prairie, Texas, your home State, by a gunman who 
was a reported domestic abuser and was carrying a concealed 
weapon legally under Texas law.
    So I would just like to ask you this question: What 
standards can we, should we apply to concealed-carry permit 
holders to avoid abuses such as these?
    Ms. Hupp. That is a weighty question. When you were 
referring to the roller rink, I thought of our local roller 
rink, and the owner actually requires that all of his employees 
carry to prevent just that scenario.
    I will have to revert back to what I said earlier. A gun is 
not a guarantee. It just changes the odds. And it is a tool 
that can be used to kill a family or a tool that can be used to 
protect a family, but it seems to me that you all are focusing 
on the tool. If I were to take--and I hate to say this out 
loud, honestly, because I have children in a public school. But 
is there any doubt in anyone's mind that the maniac that went 
into the Sandy Hook Elementary could not have murdered as many 
children if he had carried a samurai sword?
    My contention is that guns are very effective tools and in 
the right hands can prevent some dreadful things.
    Chairman Durbin. So, Ms. Wortham, your experience with your 
brother, a law enforcement officer who was armed, your father 
nearby with a gun, and, sadly, despite that, your brother lost 
his life. You have heard this argument now on both sides. Where 
do you come down on this? How do you--I mean, as reflect on 
this----
    Ms. Wortham. Right. So perspective is everything, and I 
think Ms. Hupp's story is horrible. I was telling her at the 
break that I read it and I was traumatized. But I think that 
what we know, as I said in my statement, is they were both 
armed, and Thomas is dead. And it is true. It betters your odds 
sometimes. But I also think that we are kind of not focused on 
the big picture here, and I think that is what kind of concerns 
me.
    It is not about disarming law-abiding people. We are 
talking about doing our best to keep the guns away from people 
who should never have them in the first place, right? So I feel 
like we are going off track a lot here with the focus on people 
should have guns, people should have guns. I do not think 
anyone is saying that there should not be a right to bear arms. 
I do not think anyone is saying that here. I think what we are 
saying is that the second amendment does not prevent us, you, 
the law-making body here, from looking at ways that we know we 
can try and reduce the amount of people who should not have 
guns from having them so that the situations like Ms. Hupp's, 
like ours, like all the families who are here this weekend, we 
will not see them as much. And I think that is what we should 
talk about more than saying, oh, well, yes, guns are helpful 
sometimes, they sure are, but----
    Chairman Durbin. So in your case that I have read about and 
you told quite a bit about, there are still some elements that 
I would like to put in the record. None of the four suspects 
who were involved in your brother's murder was eligible to buy 
a handgun from a licensed gun seller. Three of the suspects 
were under the legal age to buy a handgun, and the fourth had 
served 6 years in prison on a drug charge. As far as we know, 
these suspects did not even try to buy a handgun from a 
licensed seller. That is just a conclusion we reached. They 
bought a trafficked gun from a private seller on the streets.
    So, in general, do you think that ineligible buyers are 
deterred from trying to get guns from licensed gun dealers 
because of the fact that they are going to face a background 
check?
    Ms. Wortham. I think that is definitely helpful, yes. I 
mean, I think they go the way that they know they will not have 
to be subjected to that, so yes.
    Chairman Durbin. Even getting back to Senator Graham's 
prosecution numbers--and we started the hearing talking about 
these are paperwork crimes and often do not carry strong 
penalties and the prosecutor has limited resources to apply to 
enforcing the law and so forth--I think it is fairly obvious 
and rational to believe some of these gang bangers are never 
going to walk into a gun dealer.
    Ms. Wortham. Right, and I think that the part--all due 
respect to Senator Graham--that we miss with the chart was 
that, yes, maybe the prosecution of those who are flagged as 
not eligible for guns is not what we would like it to be. But 
we miss the fact that they were flagged as not eligible for 
guns. So the tool is still an effective deterrent, and that 
part is not displayed in the chart with the numbers of the 
maybe not so great prosecution numbers. So I think we miss that 
in depicting the numbers that way.
    Chairman Durbin. Professor Webster, one of the things I 
find interesting is kind of the hands-off attitude that 
Congress takes when it comes to many of these gun issues. To 
think of the number of Americans who die from violent gun crime 
and the like and the fact that we have expressly prohibited 
certain agencies of Government from doing any research into gun 
violence and how to reduce it, we do not think twice about 
calling for research in reducing epidemics and reducing the 
incidence of disease.
    Can you talk from a public health perspective about the 
problem of gunshot deaths in our country and what you think we 
need to do to address it?
    Professor Webster. Sure. As I indicated in my testimony, I 
think from a policy standpoint, really the most important thing 
is that we currently make it way too easy for criminals to get 
guns, and there are some common-sense ways to address that. We 
need comprehensive background checks. We are never going to be 
effective without that.
    As is indicated by the numbers, it is difficult to 
prosecute them, and that is, frankly, by design. The laws are 
written in a way to minimize accountability for those who are 
buying and selling firearms. I think that is very wrong-headed.
    I have several studies that I have conducted that show very 
consisted evidence that States that have greater measures to 
hold firearms sellers and purchasers accountable have 
substantially less diversion of guns to criminals. They also 
happen to enjoy some of the lowest rates of firearm mortality 
among the 50 States.
    So I think there are things that we can do, again, that 
focus on really what most of us agree upon. None of us want 
dangerous people to have guns, yet Congress has currently given 
us a set of laws that make it very difficult for law 
enforcement to do what we want them to do, which is keep guns 
out of the hands of dangerous people.
    Chairman Durbin. Thank you, Professor Webster, and I want 
to thank the panel for your patience and forbearance as we 
raced around doing our roll calls.
    The record will be open for a few days--Professor Tribe, 
you know this; you are a regular--and there may be some 
questions sent your way, and I hope, if you can, that you will 
respond promptly.
    There is a lot of interest in this subject and in today's 
hearing. More than 120 individuals and organizations submitted 
written testimony. I am supposed to be handed a prop now and 
show you the big stack of them, but I am going to skip that. 
And, without objection, I am going to ask that these statements 
be placed in the record.
    [The information referred to appears as a submission for 
the record.]
    Chairman Durbin. We are going to keep the record open for a 
week. Written questions for the witnesses may be submitted, as 
I mentioned earlier. And if there is no further business to 
come before the panel, I am going to ask that this hearing 
stand adjourned. Thank you.
    [Whereupon, at 1:17 p.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]
    
    

                            A P P E N D I X

              Additional Material Submitted for the Record
              
              
              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
              



                 Additional Submissions for the Record

A list of material and links can be found below for Submissions for the 
 Record not printed due to voluminous nature, previously printed by an 
 agency of the Federal Government, or other criteria determined by the 
                               Committee:

    Cramer, Clayton, Professor, ``Reforming Colorado Mental Health 
Law,'' issue

     paper:
        http://www.claytoncramer.com/scholarly/
        ColoradoMentalHealthReform-
        1.pdf.

    Pratt, Erich, and Michael Hammond, Gun Owners of America, ``Current 
Gun

     Control Proposals Will Endanger the Rights of Law-Abiding 
Americans,''

     statement:
        http://gunowners.org/congress02122013.htm.

    Reynolds, Glenn Harlan, Professor, ``Second Amendment Penumbras: 
Some

     Preliminary Observations,'' research paper:
        http://papers.ssrn.com/sol3/papers.cfm?abstract_id=2002132.

                                 [all]



</pre></body></html>
